Audit of the Financial Management
of the Gemini Project




                        December 15, 2000
                            OIG 01-2-001




                   National Science Foundation
                    Office of Inspector General
        Executive Summary

7   -
        Purpose            Since the early 1990's, the National Science Foundation (NSF) has taken a
,--
                           more active interest in proiects that require international collaboration
                           and/or facility construction. The portibn of NSF's portfolio that includes its
                           capital asset activities is calledfhe Major Research Equipment (MRE)
                           account. The Gemini Project, which began in 1991, was one of the first
                           projects to receive funding from this account in 1995, when Congress
                           established it as a separate appropriation. Our audit reviewed the Gemini
                           Project as one example of how NSF is managing large infrastructure
                           projects.


        Background         'The Gemini Project supports the construction and subsequent operation of
                           twin 8-meter telescopes located in Hawaii and Chile. This Project is the
                           result of a scientific and financial collaboration among seven partner
                           countries and is designed to give astronomers in the partner countries'
                            scientific communities access to the entire sky. The United States is a
                            50-percent partner of the Project and provides funding through NSF.

                           Gemini North, the telescope located atop Mauna Kea in Hawaii, is
                           scheduled to begin scientific observations in the fall of 2000. Construction
                           efforts at Gemini South, located atop Cerro Pachon in Chile, are
                           approaching their conclusion and observations at this location are expected
                           to begin in mid-2001.


        Results in Brief   NSF's current policies and procedures for overseeing and administering
                           large infrastructure awards need improvement. NSF's current policies and
                                       directed at managing are geared toward the small, single-
                           investigator awards. While these may be appropriate for the bulk of NSF's
                           awards, they are not adequate for managing capital, MRE funded projects
                           like Gemini.

                           In particular, we found that the Gemini Project will spend at least $52.8
                           million more than its approved budget for Construction and Commissioning
                           and has been and is planning to continue to use its Operations budget to
                           cover these costs. This has resulted in misstating both the Onerations and
                                                                            u

                           Construction and Commissioning costs, and is potentially a
                           nonconformance with federal appropriations law.

                           In addition, not all partners have met their contribution commitments.
                           Accordingly, NSF has largely shouldered the additional costs by advancing
                  Executive Summary
                                                                                                            -     -




                  $6.2 million more funds to the project than were required and purchasing
                  observation time. This has resulted in NSF exceeding its 50 percent
                  authorized funding cap.

                  Further, there is a high risk that some partners will continue to be unable to
                  meet their Project commitments and NSF's funding levels will remain
                  above the cap.


                  Accordingly, to address these issues, NSF needs to develop policies and
Recommendations   procedures specifically focused at managing- large
                                                                   - capital projects. These
                  procedures need to address the fiscal and legal impliEatiois of funding
                  projects from the MRE appropriation. Additionally, they should include
                  project management principles of providing decision-makers with good and
                  timely information about cost estimates, risks and project scopes before
                  committing substantial resources. They should also provide for monitoring
                  performance against cost, schedule and technical goals. Further, NSF needs
                  to provide for an appropriate level of senior management and National
                  Science Board involvement in reviewing actions to provide additional funds
                  for large capital and infrastructure project awards.

                  In addition, NSF, along with the Gemini Board, needs to reevaluate the
                  Project's cash plan for operations through 2005 to realistically assess the
                  ability of all members to meet their financial commitments for operations.'
                  NSF should also reevaluate its level of contribution to Project operations
                  costs in light of Congress and the NSB's intent that NSF's contributions not
                  exceed 50 percent. A contingency plan should be developed which
                  equitably distributes among the partners the responsibility for funding cash
                  shortfalls.




                  'This recommendation coincides with the NSF's 5-year award period for the management
                  of Gemini, which requires a thorough review of operations budget needs. Thereafter, the
                  Gemini Board would review the project's operating needs and cash commitments
                                                                                                            i :
                  concurrently each 5-year period.




                  Page ii
r   -                     Executive Summary




        Agency Response   The Agency has accepted a number of our recommendations and is taking
                          strides to address the issues raised by this report. The Agency plans to
                          provide more complete details in its policies and procedures for managing
                          large capital and infrastructure projects and is exploring organization
                          changes to address the need for greater oversight over MRE projects.
                          However, the Agency believes that the $52.8 million identified in the report
                          as Construction and Commissioning costs are appropriately classified as
                          Operations. Thus, the Agency believes it has acted in accordance with
                          appropriations law and there is no need to reclassify obligations from the
                          R&RA to the MRE appropriation.

                          The Agency believes its cash plan to advance funds in the early years that
                          will be repaid by the partners in later years is within NSF policy because
                          NSF's limitation to 50 percent of contributions need not be met annually.
                          Moreover, the Agency is confident that all partner countries are making best
                          efforts to contribute despite difficult times. Regardless, the Agency agrees
                          there is a need to develop a five-year cash plan for operations that will be
                          independently reviewed.




                          Page iii
Contents

Executive Summary                                                        i


Chapter 1           Introduction                                         1

                    The Gemini Project
                    Objective, Scope, and Methodology

Chapter 2           Operations Funds Used to Cover
                    Construction and Commissioning Costs                4

                    Construction and Commissioning Costs
                    Exceed Budget
                    Operations Budget Used to Cover Additional
                    Costs
                    Impact of Using Two Budgets
                    Lack of Planning and Policies
                    Conclusions and Recommendations
                    Agency Response

Chapter 3           Partners Encounter Difficulties Meeting Agreed
                    Contributions to Operations                    21

                    Partner Contributions Vary Significantly from GIA   21
                    Several Factors Affected Partner Contributions      22
                    NSF Needs Realistic Cash Plan for Operations        24
                    Conclusions and Recommendations                     26
                    Agency Response                                     27

Appendices
                    Appendix A: Gemini Governance
                    ~ ~ p e n dB:
                               i xOIG Estimate of Construction and
                                  Commissioning Costs                   40
                    Appendix C: OIG Comparison of Project Costs to
                                  NSB Approved Budgets                  41
                    Appendix D: OIG Estimate of Unauthorized Transfer   42
                    Appendix E: Timeline of Gemini Board Decisions      43
                    Appendix F: Agency's Response                       44




                    Page v
                   Contents                                                          ..




Tables & Figures
                   Figure 2.1: Potential Impact to MRE Account                  11

                   Table 3.1 : Contributions to Operations by Percentage        21

                   Table 3.2: Comparison of 1996-1999 Operations
                              Contributions to Contributions Received           22



                    Table 3.3: Partner Percentage Contributions to Operations   25




                   Abbreviations

                   AURA           Association of Universities for
                                  Research in Astronomy, Inc.
                   GIA            Gemini International Agreement
                   IGPO           International Gemini Project Office
                   MRE            Major Research Equipment
                   NSB            National Science Board
                   NOAO           National Optical Astronomy Observatories
                   NSF            National Science Foundation
                   R&RA           Research and Related Activities
                   UK             United Kingdom

                   Page vi
Chapter 1

Introduction

                     Since the early 1990's, the National Science Foundation (NSF)
                     has taken a more active interest in projects that require
                     international collaboration andlor facility construction. The
                     Gemini Project ("Gemini" or the "Project"), initially proposed as
                     a national observatory, fit within NSF's plans for an international
                     scientific and financial collaboration.

                     Funding for the Project began in 1991 through a subaccount of
                     NSF's Research and Related Activities appropriation. However,
                     when the US Congress requested a separate appropriation
                     account for capital asset activities, the Gemini Project was one of
                     the first projects, in 1995, to receive funding from the now
                     separate Major Research Equipment (MRE) appropriation
                     account.


The Gemini Project   Responding to a report advocating ground-based opticallinfrared
                     telescopes that would provide a ten-fold increase in light
                     gathering capability, the National Optical Astronomy
                     Observatories (NOAO), through its parent organization, the
                     Association of Universities for Research in Astronomy, Inc.
                     (AURA), submitted a proposal to NSF in 1989 to fund the
                     construction and operation of a national observatory consisting
                     of two 8-meter telescopes, one in the northern hemisphere and
                     one in the southern.

                     In an effort to encourage collaboration among their countries, the
                     scientific agencies of the United States, the United Kingdom and
                     Canada began discussing the NOAO proposal as a joint effort.
                     Subsequently, these nations formed a partnership, with IVSF as
                     the Executive Agency and AURA as the Managing
                     Organization, to construct and operate Gemini. Because of a
                     need for additional funding, they later added Chile, Argentina,
                     Brazil and Australia as additional partners.

                     The Gemini International Agreement (GIA), signed by all of the
                     partner countries, is the primary document governing Gemini.
                     The GIA, which is non-binding under international law, covers
                     the construction and commissioning, and operation of Gemini
                     and spells out such details as the science requirements, the
                     partners' contributions and observation rights, and the principal
                     governing structure. The primary supervisory and regulatory

                     Page I
Chapter 1
Introduction




body over Gemini is the Gemini Board (Board), which consists
of members from each of the partner countries with more
members from countries with greater financial participation.
NSF is named as the Executive Agency of Gemini and is
primarily responsible for the financial management of Gemini.
NSF receives and maintains records of contributions from the
partner countries; NSF also chooses and oversees the Managing
Organization. NSF selected AURA, a consortium of 29 U.S.
institutions and 5 international affiliates, as Gemini's Managing
Organization. To conduct the day-to-day management and
operations of Gemini, AURA created the International Gemini
Project Office (IGPO). The IGPO is led by the Gemini Director
and, as of August 1, 1999, included a total of 93 employees.
(For a more detailed description of Gemini Governance, see
Appendix A.)

The Gemini Project is funded solely by the contributions of the
seven partner countries. All contributions to construction and
commissioning, which began in 1991, will be completely met by
the end of 2001. Contributions to operations began in 1996.
NSF, as the Executive Agency is responsible for the collection
and recording of all partner contributions, and AURA is
responsible for the reporting of contributions. Non-US
contributions are held in trust and then made available to the
IGPO through a cooperative agreement between NSF and
AURA.

The Gemini telescopes are located at sites with superlative
astronomical observing conditions, one atop Mauna Kea in
Hawaii and the other atop Cerro Pachon in the Andean foothills
of central Chile. The 8-meter telescopes are designed to work
effectively at optical and infrared wavelengths through major
transparent "windows" in the Earth's atmosphere. The two
telescopes will have access to the entire sky, a capability crucial
for obtaining coverage of unique astronomical objects that are
visible only in one celestial hemisphere and will match the full-
sky capabilities of space observatories.




Page 2
                    Chapter 1
                    Introduction




Objective, Scope,   In order to assess the overall readiness of the Gemini facilities to
                    perform their mission, our audit had four objectives-to
and Methodology     determine whether (1) the construction efforts were being
                    completed within authorized funding levels, (2) partner
                    contributions would provide sufficient cash to support operations
                    through 2005, (3) the Project's instruments would be delivered
                    on a timely basis, and (4) the Project's safety and health
                    requirements are being met. This audit reports on the first two
                    objectives. We will issue a subsequent report addressing the last
                    two objectives.

                    To accomplish these objectives, we reviewed NSF and Gemini
                    Project financial records capturing budget and actual cost
                    information for comparison to authorized funding limits set by
                    the NSF and the intent of the Congress. We also analyzed cash
                    flows to operations for the years 1996 through 2005 to determine
                    whether all partners were contributing to the project as required
                    by the GIA. We reviewed NSF's and AURA'S policies and
                    procedures for collecting, recording and reporting contributions.

                    We interviewed key personnel of the International Gemini
                    Project Office, NSF, the headquarters of the AURA
                    organization, and both former and current members of the
                    Gemini Board and Gemini Finance Committee to understand
                    overall processes for managing the Project's construction,
                    operations, and financial activities, and the various roles and
                    responsibilities of these organizational elements of the Project.

                    We conducted our audit in accordance with the Comptroller
                    General's standards for audits contained in the Government
                    Auditing Standards.




                    Page 3
Chapter 2

Operations Funds Used to Cover                                                                               --



Construction and Commissioning Costs
                   The Gemini Project will spend at least $52.8 million more than its NSB                    . .
                   approved budget for Construction and Commissioning and has been and is
                   planning to continue to use its Operations budget to cover these costs. This
                   occurred because the budget used to establish the Congressional and NSF                   .-
                   funding cap for Construction and Commissioning was premature and
                   unrealistic, and because NSF lacked the policies and procedures necessary                 ,       .
                   for managing large infrastructure projects. The use of Operations funds to
                   cover excess Construction and Commissioning costs results in overstating
                   actual Operations costs while understating the Construction and
                   Commissioning costs. It also inconsistent with federal appropriations law                     I
                   and results in missed opportunities for funding other worthy NSF projects.


Construction and   In its FY 1992 budget request to Congress, NSF requested initial funding
                   for Gemini. Based on NSF testimony that "[tlhe project is estimated to take               i'
Commissioning      8 years to complete at a total cost of $176 million, of which the U.S. will
Costs Exceed                half,"'-congress approved the project. Beginning that same year
                   and continuing through FY 1995, Congress provided appropriations to fully
Budget             fund the US share of $88 m i l l i ~ n . ~

                   From the project's inception, it was understood that a project of this type
                   would encompass three phases: Construction, Commissioning, and
                   Operations. These phases were defined in the GIA and each was accounted
                   for in the GIA Financial Provisions. Construction is defined as "the
                   planning, design, construction, and installation of the Gemini Telescopes."
                   Commissioning is defined as "the stage immediately following                                  ,
                   Construction in which the telescope and instrument systems are integrated
                   and the telescopes are used with day-one instruments to characterize and de-              .
                   bug the facility operations." Consistent with the Congressionally approved                .-
                   budget of $176 million, the NSB provided, first in 1991, then in 1993 and
                   finally in 1995, authorization for NSF to obligate the full $176 million for              I . ,



                   the Construction and Commissioning phases of the ~ r o j e c t . ~                        rr
                   Subsequently, in November 1995, the Gemini Board initiated action to                      * .

                   increase this budget by approving an additional $8 million, and thereby

                   ' Departments of Veterans Affairs and Housing and Urban Development, and Independent
                   Agencies Appropriations for 1992: Hearing Before the Subcomm. on VA, HUD, and
                   Independent Agencies of the House Comm. on Appropriations, 102nd Cong. (1 99 1).
                     See e.g., S. REP. NO. 102-107 (1991); S. REP. NO. 103-3 11 (1994); H.R. COW. REP. NO.
                    103-715 (1994).
                   ' See NSB-95-127, June 23, 1995, at Tab E.

                   Page 4
.   .
-   .   Chapter 2
        Operations Funds Used to Cover
        Construction and Commissioning Costs




. .
        bringing the Construction and Commissioning budget for the project to
. .
        $184 million. This increase was not specifically approved by the NSB, but
r .     was allowable under an NSB delegation of authority, which provided
        authority to NSF's Director to supplement NSB-approved awards by up to
        $10 m i l l i ~ n . ~

        To cover its fifty percent share of this increase, NSF for FY 1998 requested
        and Congress subsequently provided the extra $4 million "for technical
        enhancements to the Gemini telescope project."5 This additional funding
        brought the total amount of US funds appropriated for the project to $92
        million, one-half of the $184 million budget.

        In addition to the Construction and Commissioning budget, the NSB also
        approved amounts to fund operations-type activities of the Gemini Project.
        In contrast to Construction and Commissioning work, Operations, under the
        GIA, is defined as

                 "the stage after each of the Gemini Facilities have been fully
                 commissioned. This represents steady-state operation and
                 requires all major telescope and building functions to have
                 been tested and accepted, a complement of scientific and
                 technical staff able to support routine astronomical
                 observations with the existing facilities to be in post, and the
                 capability to commission new instruments and telescope
                 enhancements with minimal disruption."

        To ensure a smooth transition and continuity of knowledge and expertise,
        the International Gemini Project Office (IGPO) planned to "ramp up"
        Operations activities as Construction and Commissioning work began to
        "ramp down." Accordingly, beginning in 1995, the Gemini Board began
        approving 5-year Operations budgets for gradually increasing amounts.
        The NSF-estimated amount for Operations from 1996 through 2000 was
        $28.4 million, which was approved by the NSB in June 1995.~




         See NSB-99-112, July 29, 1999; O/D 99-15, September 30, 1999.
         H.R. COW. REP. NO. 105-297 (1997).
         NSB-95-127, June 23,1995.

        Page 5
                    Chapter-2                                                                                   .-. .
                                                                                                                    .
                    Operations Funds Used to Cover
                    Construction and Commissioning Costs




Operations Budget   The Gemini Project, however, has currently exceeded its Construction and
                    Commissioning budget. As of February 29,2000, the Project has spent
Used to Cover       $188.4 million for Construction and Commissioning related work and plans
                                                        -




Additional Costs    to spend at least $48.4 million more to complete these two phases of the
                    pro-iect.
                    - -       The Project has exhausted its $184 million Construction and
                    Commissioning budget, and is using the Operations budget to fund the
                    additional Construction and Commissioning costs. Our review identified
                    $52.8 million in Construction and Commissioning costs that the Project has
                    or plans to charge to the Operations budget, the major cost categories of
                    which are described below. (See Appendix B for additional detail.)

                        Integration, Test and Commissioning Costs (IT&C) - Under the GIA
                        definitions, these costs are part of the Commissioning phase. Also,
                        early Project records show that these costs were intended to be included
                        within the original $176 million budget. However, in 1992, the IGPO,
                        with Gemini Board approval, implemented a plan that moved these
                        costs to the Operations budget. Project records also indicate that this
                        decision was based on financial constraints and the need for a greater
                        contingency fund for construction costs rather than on a change in
                        definitions. Included in this category are the costs associated with
                        "rework," which may be necessary to bring an instrument or other
                        telescope component up to fully functional standards, and spares, which
                        are extra parts for the telescope to be used as back-ups. The total IT&C
                        costs that we calculated as being or expected to be charged to
                        Operations is $17.5 million.

                        Phase I Instruments - Instruments are an essential component of any
                        telescope and are necessary to achieve scientific observation. While the
                        telescope itself may have a useful life of 20 to 50 years, the complement
                        of instruments is continually updated to take advantage of the latest
                        technology. The Project planned to fund the initial complement of
                        instruments from the Construction and Commissioning budget, with the
                        Operations budget covering the costs of an ongoing, future-years
                        instrumentation program. However, in 1995, the IGPO realized that the
                        Construction and Commissioning budget was not large enough to cover
                        all of the costs of this initial complement of Phase I instruments and,
                        with Gemini Board approval, charged the excess instrument costs to the

                      This amount is based on Project budgets and estimations and may not include all
                    Construction and Commissioning related costs still to be spent. For example, we were
                    unable to determine a reasonable basis for estimating integration, test and commissioning
                    costs past 2000. Thus, we feel this number is conservative and is subject to increase.

                    Page 6
..                        Chapter 2
- .
                          Operations Funds Used to Cover
                          Construction and Commissioning Costs




                              Operations budget. We estimate a total of $8.0 million in Phase I
                              instrument completion costs to be charged to the Operations budget.

                              Facilities - The Gemini Telescopes have various components and
                              facilities that will be in need of future upgrades. As with the instrument
                              program, the Project planned to fund the initial facilities costs from the
                              Construction and Commissioning budget, with the Operations budget
                              covering future-years maintenance and upgrades. However, many
                              facilities costs, with Gemini Board approval, have been charged to the
                              Operations budget. For example, the 1992 Science Requirements for
                              the telescopes included an adaptive optics system. However, the system
                              actually being provided has a laser capability that was not originally
                              envisioned. With this added capability comes an added cost of $12.5
                              million that has been charged to Operations. We have estimated total
                              facilities costs, in addition to the ongoing facilities upgrade program, of
                              $20.0 million that will be charged to Operations.

                              Hawaii Base Level Headquarters - In 1994, the NSF signed a
                              Memorandum of Understanding with the University of Hawaii (UH) for
                              the lease of a site for the Gemini North telescope on Mauna Kea. At the
                              same time, UH agreed to use its best efforts to provide sea level office
                              space for the IGPO. However, the UH was unable to acquire the
                              necessary funding and the Project proceeded to construct its own
                              facility. Because the Construction and Commissioning budget could not
                              absorb the $4.4 million cost of this capital asset, the Project funded the
                              entire amount through the Operations budget.

                              Chile Base Level Headquarters - The original Construction and
                              Commissioning budget included a small amount for the cost of sharing
                              existing facilities with other Chilean observatories rather than providing
                              separate office space for Gemini South. The Project, however, is
                              planning to construct its own office space, as it did for Gemini North,
                              and is anticipating spending $1.5 million from the Operations budget for
                              this effort.


        Impact of Using   The use of Operations finds to cover excess Construction and
                          Commissioning costs has had several results. First, classifying the costs as
I
        Two Budgets       operating costs has resulted in overstating the Operations budget, while
\   -
                          simultaneously understating the true costs for the Construction and
                          Commissioning of the Project. Second, NSF may not be in conformance

                          Page 7
                        Chapter 2                                                                                   - -
                        Operations Funds Used to Cover
                        Construction and Commissioning Costs




                        with Federal appropriations law by not funding Construction and
                        Commissioning costs exclusively out of the NSF appropriation intended for
                        this purpose. Finally, NSF has potentially missed opportunities to fund
                        other worthy projects in order to absorb the additional Construction and
                        Commissioning costs.


Inflated Operations     Using Operations funds to cover the excess Construction and
Budget                  Commissioning costs has inflated the Operations budget. The Gemini
                        Board has approved a 1996 to 2000 Operations budget8 of $58.8 million.
                        However, the majority of this budget is related to Construction and
                        Commissioning, rather than Operations ramp-up, costs. After removing
                        Construction and Commissioning costs from the Operations budget, we
                        found that actual Operations ramp-up costs through December 3 1,2000 are
                        expected to reach only $19.5 million, $39.3 million less than the Gemini
                        Board-approved Operations budget (see Appendix C for more detail).

                        On the other hand, this use of Operations funds has understated true
                        Construction and Commissioning costs and enabled the Project to
                        artificially maintain its $184 million budget. By artificially keeping within
                        this spending cap, NSF has not sought hrther approval from either the NSB
                        or Congress for'additional Construction and Commissioning hnds.


NSF May Be in           Additionally, in using Operations funds to cover Construction and
Noncompliance with US   Commissioning costs, NSF may be in noncompliance with Federal
                        appropriations law. Under US appropriations law, an agency must spend
Appropriations Law      funds in accordance with the purpose for which Congress provided them.
                        Specifically, this "purpose" statute requires that "[a]ppropriations shall be
                        applied only to the objects for which the appropriations were made except
                        as otherwise provided by law."' If an agency has an appropriation
                                                                                 - -  -        for a
                        specific object, that appropriation is available to the exclusion of a more


                          In October 1997, the Partners, with the exception of Chile, executed Administrative
                        Guidelines to "supplement the relevant Provisions of the Gemini Agreement." These
                        Guidelines provide that the Gemini Board will approve an annual Operations budget and a
                        5-year plan each November. The Guidelines also define the percentages of this budget that
                        each Partner is to contribute. Unlike the GIA and its amendments, the Administrative
                        Guidelines was not signed by the NSF Director, rather it was signed by an NSF Grants
                        Officer. Additionally, the Administrative Guidelines was not reviewed or approved by the
                        US Department of State.
                          31 U.S.C. !j 1301(a).

                        Page 8
Chapter 2
Operations Funds Used to Cover
Construction and Commissioning Costs




general appropriation.1° Further, even if there is not a specific appro-
priation and an agency has two appropriations available for the same
purpose, once the agency has made a choice as to where an object
should be funded, the agency must continue to use this appropriation to
the exclusion of any other." An agency generally may not use funds
from one appropriation to supplement or augment another appropria-
tion.

In the case of the Gemini Project, Congress provided funding for the
Construction and Commissioning of this Project through NSF's Major
Research Equipment (MRE) appropriation. NSF established this appro-
priation account for FY 1995 at the request of Congress and in recogni-
tion of a need to handle the different funding issues associated with
capital projects. In doing so, NSF described in its FY 1995 budget
request to Congress the purpose of this account:

        "[tlhe [MRE] account is established to provide funding for the
        construction of major research facilities that provide unique
        capabilities at the cutting edge of science and engineering . . .
        Projects supported by this Account will push the boundaries of
        technological design and will offer significant expansion of
        opportunities, frequently in totally new directions, for the science
        and engineering community."

In contrast, NSF described the Research and Related Activities (R&RA)
account as providing "Operations and Maintenance, once construction
of the basic facility is completed." For that same fiscal year, Congress
approved for Gemini $4 1 million for Construction and Commissioning
costs as part of the MRE appropriations a c ~ o u n t . ' Congress
                                                          ~        provided
all subsequent appropriations for the Construction and Commissioning
phases of Gemini through the MRE account.I3 Also, in keeping with
the descriptions of the MRE and R&RA accounts, NSF funded the
Projects' Operations costs from the R&RA appropriation account.

   lo  See UNITEDSTATES GENERAL ACCOUNTING    OFFICE,PWCIPLES   OF FEDERALAPPRO-
   PRIATIONS  LAW,2-17 (2ndEd.Vol. I 199l)(hereinafter "REDBoo~")(citing1 Comp.
   Dec. 126 (1894); 4 Comp. Gen. 476 (1924)).
   ' I See REDBOOK, supra note 18, at 2-19 to 2-20 (citing 68 Comp. Gen. 337
   (1989); 23 Comp. Gen. 827 (1944); 10 Comp. Gen. 440 (1931); 5 Comp. Gen.
   479 (1926); 15 Comp. Dec. 101 (1908); 5 Op. Off. Legal Counsel 391 (1981)).
   l 2 See H.R. CONF.REP. 103-715 (1994).
   l 3 H.R. REP.NO. 105-175 (1997).



   Page 9
Chapter 2
Operations Funds Used to Cover
Construction and Commissioning Costs




Accordingly, funding Construction and Commissioning of Gemini
fkom the MRE account has been recognized as appropriate by Con-
gress14 and is in keeping with the purpose for which this account was
established. It is also the account fkom which NSF chose to fund
Construction and Commissioning activities. Therefore, in using
Operations funds to cover Construction and Commissioning costs,
NSF does not appear to be using the R&RA account for authorized
purposes. At the same time, NSF may be improperly augmenting its
MRE appropriation.

In order to prevent an agency from undercutting the Congressional
"power of the purse,"15 Federal appropriation law requires an agency
to have specific statutory authority before it can transfer monies
between appropriations.16 NSF does not have this transfer authority
currently and thus when Congress appropriated funds for MRE
activities, this appropriation represented a limitation of the amount of
funds that NSF had authority to obligate." Accordingly, NSF's use
of the R&RA account to pay for Construction and Commissioning
costs is essentially an unauthorized transfer of funds and an improper
augmentation of the MRE account.

In addition, NSF's action may not be in accordance with the require-
ments of the Antideficiency Act. The Antideficiency Act, 3 1 U.S.C. §
1341(a), provides that an officer or employee of the United States
may not obligate funds in excess of the available appropriation.
Therefore, while the NSF obligations for the excess Construction and
Commissioning costs did not actually come from the MRE account,
they should have come from this account.

l4 Letter from Jerry Lewis, Chairman, House Subcommittee on Veterans Affairs,
Housing and Urban Development and Independent Agencies and Christopher
Bond, Chairman, Senate Subcommittee on Veterans Affairs, Housing and Urban
Development and Independent Agencies, to Neal Lane, Director, National
Science Foundation (December 30, 1996) ("To the extent additional funds [for
Gemini] are needed in future years to achieve initial operating ca~ability,the
Committees strongly urge the Foundation to request these funds as part of the
Major Research Equipment account if these funds directly relate to the construc-
tion of the facilities.") (emphasis added).
l 5 See U.S. CONST.  art. I, 9 9, cl. 7.
 l6 See 3 1 U.S.C. 5 1532.




 Page 10
                     Chapter 2
                     Operations Funds Used to Cover
                     Construction and Commissioning Costs




                     We have calculated approximately $19.3 million18 in R&RA obligations to
                     date that should have been MRE obligations. (See Appendix D.) Because
                     the MRE account contains funding for more than the Gemini Project, there
                     may be a sufficient balance in the account to absorb these extra Construction
                     and Commissioning obligations. However, to the extent that reclassifying
                     the Construction and Commissioning costs to the MREi account results in
                     exceeding the existing fund balance, NSF will not be conforming with the
                     Antideficiency Act. This would require immediate reporting to the President
                     and Congress and possible administrative sanctions.19

NSF May Have Unmet   If NSF has to make adjustments to the MRE and R&RA appropriations to
                     properly account for all of the Construction and Commissioning costs, such
Opportunities        adjustments will lead to unmet opportunities in both accounts. This means
                     that NSF will have lost the opportunity to potentially fund other, worthy
                     scientific projects.

                     First, if the Construction and Commissioning costs that are currently funded
                     by the R&RA account are reclassified as obligations to the MREi account,
                     funds available for existing MRE projects would have to be reduced in order
                     to absorb these additional Gemini Project obligations. Currently, the MRE
                     account contains funding for seven specific projects.20 Figure 2.1 depicts
                     the potential impact on these seven projects if Gemini Construction and
                     Commissioning costs are reclassified to the MRE account.

                         1                                Figure 2.1
                                                                                                      I


                         I
                         I
                                                                                                       i




                                       FY 2000 Current     Potential Impact
                                            Plan
                                                                                        -    -     -




                     'a While we are estimating the total amount of Construction and Commissioning
                       costs that have been or will be paid from the Operations budget as $52.8 million,
                       only a portion of these costs are attributable to NSF. Further, because the entire
                       $52.8 million has not yet been spent, not all of the NSF share has been obligated.
                     l 9 See 31 U.S.C. $5 1349(a), 1351.
                      20 As described in the FY 2000 Current Plan contained in NSF's FY 2001 Budget

                        Request to Congress.
                      Page 11
                      Chapter 2
                                                                                                       - .
                      Operations Funds Used to Cover
                      Construction and Commissioning Costs




                      Second, the reclassification of R&RA obligations to the MRE account will
                      result in an equal amount of unobligated funds now being available in the
                      R&RA account. However, since the R&RA appropriation is a two-year
                      appropriation; that is, it is available for two fiscal years only, these funds
                      may no longer be available for obligation. Thus, while NSF may have
                      excess unobligated R&RA funds resulting from reclassifying the
                      Construction and Commissioning costs to the MRE account, it may not be
                      able to use all of them to make other awards because the authority to spend
                      some of those funds has expired. Accordingly, we estimate NSF could lose
                      the use of at least $5.1 of the $19.3 million in funds that would be available
                      after the reclassification.

Lack of Planning      The decisions made by the Gemini Board to fund Construction and
                      Commissioning costs from the Operations budget largely stem from the
and Policies          rigid budget cap that was placed on the project at an early date and from a
                      lack of adequate policies and procedures in NSF to manage large capital
                      projects.


Budgets Were          Throughout this project, the collaborating countries have struggled to
Unrealistic to Meet   remain within the funding cap on Construction and Commissioning set by
                      the NSF and adopted by Congress. The Gemini Board and the Managing
Scientific Needs      Organization have continuously worked to explore the lowest cost
                      alternatives available.   ow ever, we believe that some of the decisions
                      reached by the Board in the early 1990's set a spending pattern that resulted
                      in any excess Construction and Commissioning related costs, whether in or
                      out of the original project scope, being spent out of the Operations budget.

                      The project was initially proposed to NSF by NOAO, a division within
                      AURA, as a national observatory to be built and managed by NOAO. The
                      proposal contained a preliminary construction and commissioning budget of
                      $143.8 million, which was developed before the project was designed or
                      engineered and did not account for inflation. Using this initial proposal,
                      NSF performed a "should cost" analysis of the budget applying inflationary
                      factors to the amounts, but not for any new analysis of the technical aspects
                      of the Project, to derive a budget of $176 million.

                      NSF, however, was unwilling to fund the total project. The NSF Director at
                      the time was interested in NSF engaging in more international
                      collaborations and saw Gemini as a perfect opportunity for such a project.
                      He set the requirement that the project be funded for $176 million with the

                      Page 12
Chapter 2
Operations Funds Used to Cover
Construction and Commissioning Costs




NSF providing only half of the funding. The other half would need to come
from international partners, originally identified as the United Kingdom
(UK) and ~ a n a d a .This
                      ~ ' is the vision of the project that NSF took to
Congress, including the $176 million budget, and the basis on which
Congress subsequently approved and provided funding for the project.

Subsequently, however, in 1991, once an international partnership was
established, scientists from the US, UK and Canada reviewed the science
requirements of the telescopes and developed a "bottom's-up" budget of the
costs for the project. The estimate came in at $237 million, 35 percent more
than the $176 million budget that Congress had approved. At the time, no
one involved believed that NSF or Congress would approve additional
funding and it was feared that the project would be lost unless the cap could
be met.

Therefore, in 1992, to accommodate these funding constraints, the Project
scope was significantly reduced, e.g., descoped. Various features and
facilities were eliminated, including a secondary mirror, in an effort to pare
down the budget and bring it back within the funding cap.
                                                                                              .--

While the descoping effoit did result in significant cost reductions for the
Project, it was not enough to bridge the entire funding gap. Accordingly,
later that year, the Project decided that Commissioning costs would be spent
out of the Operations budget, thereby setting the precedent for charging
costs to Operations that were originally intended to be paid from the
Construction and Commissioning budget.

Accordingly, in 1995, the IGPO, with Gemini Board approval, began
charging other costs previously identified as Construction and
Commissioning to Operations, including integration and test costs
associated with assembling and testing the telescopes components and
spares.

Also, costs for specific telescope components were coming in higher than
the 1992 budget provided and the additional costs were again paid for with
the Operation budget funds. This included the increased costs for Phase I
instruments that were budgeted in 1992 using technological paradigms for

21Initially, both the UK and Canada planned on providing 25% of the funding, half of the
remaining 50%. Canada, however, was only able to provide 15% necessitating the search
for other partners that resulted in the addition of Chile (5%), Argentina (2.5%) and Brazil
(2.5%).

Page 13
                         Chapter 2
                                                                                                          -   -
                         Operations Funds Used to Cover
                         Construction and Commissioning Costs




                         4-meter telescope instruments. Unbeknownst at the time, 8-meter telescope
                         instruments cost significantly more than 4-meter telescope instruments.
                         Because the Phase I instrument budget was not large enough to cover the
                         costs of all these instruments, the IGPO recommended and the Gemini
                         Board approved funding Phase I instrument completion costs from the
                         Operations budget.

                         Subsequently, the Gemini Project continued to fund unanticipated and extra
                         Construction and Commissioning costs from the Operations budget. (See
                         Appendix E for a timeline of relevant Gemini Board funding decisions.)

                         The Project faced the ever-overwhelming task of completing a project
                         within a capped budget that was immature and unrealistic from the outset.
                         The scientific and technological needs of the telescopes simply cost more
                         than the authorized budget would allow. Therefore, rather than build an
                         obsolete facility or risk project termination if additional funds were sought,
                         the Project looked to the Operations budget as its alternative funding
                         source.


NSF Needs Improved       The need for improved controls and processes for managing large capital
ControlS and Processes   projects may have also contributed to financial management issues.
                         Specifically, NSF lacked adequate policies and procedures to guide the NSF
                         program representatives in the use of the MRE and R&RA appropriations
                         when making funding decisions affecting the Project. NSF's Proposal and
                         Award Manual has not been formally updated since before the creation of
                         the MRE account and contains no guidance on the management of large
                         capital and infrastructure projects. It also does not recognize the
                         establishment of the MRE account as an appropriation separate from the
                         R&RA appropriation. This lack of guidance allowed the Gemini Board to
                         approve the use of the Operations budget to fund Construction and
                         Commissioning costs. For NSF this action may be in noncompliance with
                         Federal appropriations law and had other significant impacts.

                         Prior to 1995, the MRE account was a sub-account of the R&RA
                         appropriation. This "bricks and mortar" sub-account funding the capital-
                         type projects that now make up the MRE account along with the Major
                         Research Instrumentation program that has continued to be funded by the
                         R&RA account. When the new MRE account was established in 1995, it
                         continued to retain the same account name and to fund the same type of
                         projects as the old MRE sub-account. NSF staff members associated with

                         Page 14
Chapter 2
Operations Funds Used to Cover
Construction and Commissioning Costs




the Gemini Project did not realize that the MRE account represented a new
appropriation, separate from the R&RA appropriation. Therefore, they did
not understand that the R&RA account could no longer be used to
supplement the MRE Construction and Commissioning costs, as was done
in the past with the sub-account.

Also, while the NSB in May 2000, approved the adoption of Interim
Guidelines for Planning and Managing Major Research Equipment Account
Projects (Guidelines), these Guidelines continue to indicate a
misunderstanding of the new MRE appropriation account. Ln particular, in
discussing the requirements for internal cost-sharing of
construction/acquisition costs, the Guidelines state that the NSF program
proposing an M U project should "[plropose a plan for significant sharing
of construction/acquisition costs, which typically represents the level of
anticipated operating costs by the final year of construction/acquisition."
Additionally, the Guidelines note that "[c]ost sharing for construction is
reflected in a downward adjustment to the Originating Organization's base
budget during the period of construction and an. upward adjustment to the
Organization's base budget for operations costs of the project after
construction." Accordingly, these Guidelines seem to be advocating using
R&RA funds to supplement the MRE account on a project-by-project basis
rather than recognizing the MRE account as a separate appropriation
requiring separate fund control management.

The Guidelines also do not seem to adequately address the post-award
management of these large projects. Rather, they deal primarily with how
to initiate funding of a new MRE project and the steps a program must go
through to gain approval for such a project. Little description is provided
on how to effectively manage these large projects after they are awarded.
For example, the Guidelines do not discuss clear definitions and criteria for
the costs to be covered by the MRE account and the nature of the budget
analysis and cost projection necessary prior to funding limitations being
established. Nor do they discuss NSF's expectations and standards for good
project management including the monitoring of projects, accountability for
tracking the project's cost, schedule, and technical performance, and
methods for addressing problems such as cost overruns, schedule delays and
changes in the technical scope of work.

We also believe the lack of senior NSF management and NSB knowledge
and involvement in the Gemini Project has contributed to the financial
management issues associated with Gemini. NSF's Director and the NSB


Page 15
Chapter 2      .
                                                                                 -   -
Operations Funds Used to Cover
Construction and Commissioning Costs




were not aware of the ever increasing Operations budget because NSF
policy did not provide for this information to be elevated to their level. The
NSB has delegated authority to the Director to supplement NSB-approved
awards by twenty percent or $10 million, whichever is less.22 This
authority has, in turn, been re-delegated through the Division of Grants and
Agreements to the various staff-level grant officers. Accordingly, under
this delegation, neither the NSF Director or the NSB must be notified nor
their approval sought until award costs reach the NSB-approved award
amount plus the supplemental authority. Therefore, in circumstances where
the program fully expects the award to reach a higher expenditure level,
further approval is not needed until costs have actually been incurred at that
level. For example, for the Gemini Project, the NSB approved, in June
1995, a total of $204.4 million for both Construction and Commissioning,
and Operations through December 3 1,2000. As early as November 1995,
the Gemini Board approved a total budget for the same activities of $222.1
million. This Gemini Board-approved budget continued to increase and
now stands at $242.8 million. However, because actual obligations to the
Project have just now reached the NSB approved amount plus the $10
million supplemental authority, the NSF program has not sought NSB
approval for these additional costs. Accordingly, although this Project has
been underway for almost years, the Director and NSB are only now being
informed of the need for additional funding authority. Therefore, the
Director and NSB lacked the opportunity to provide guidance and suggest
options for addressing the financial issues facing the Project.

Similarly, NSF's practice of using future funding for an award to offset any
current funding deficit also limits senior NSF management and NSB
knowledge of a project's additional funding needs. For example, the
current funding authority for Gemini of $2 14.4 million (including the extra
$10 million in supplemental authority) is insufficient to meet the Project's
needs for the completion of Construction and Commissioning and
Operations costs through December 3 1,2000. In fact, the IGPO informed
us that if its funding were limited to this amount it would have to
immediately stop work and lay off its employees. AURA has recently
submitted a proposal for the continued management of Gemini. This
proposal covers operations costs for the years 2001 to 2005. The NSF
program expected to obtain NSB approval for this proposal and use the
funding to cover any excess Construction and Commissioning costs. Under
this practice, the NSB would not be aware of the significant additional
funding needed to complete the work under the current funding authority.
22
     See NSB-99-112, July 29, 1999; O/D 99-15, September 30, 1999.

Page 16
                  Chapter 2
                  Operations Funds Used to Cover
                  Construction and Commissioning Costs




                  Instead, by using future authority, the Project would have an additional 5
                  years to try to make up the difference.

                  Taken together, the need for effective controls and processes appear to have
                  contributed to the problems that we have identified with Gemini. Improved
                  policies and procedures for funding and managing large infrastructure
                  projects and a better understanding of the fiscal accounts supporting the
                  Project would help avoid the issues of appropriations law. Also, policies
                  that provide for keeping senior NSF management and the NSB informed of
                  the status of major projects allows for a proactive process of solving
                  problems and considering other options as they occur.


Conclusions and   Given the increasing emphasis that NSF is p l a h g on large, collaborative
                  projects, NSF needs to develop effective policies and procedures for
Recommendations   managing large capital and infrastructure projects. Such policies and
                  procedures should help NSF on future projects to better address the legal
                  and financial management challenges that have faced the Gemini Project.
                  While the Project has continuously worked to explore the lowest cost
                  alternatives available and endeavored to meet the needs of the partner
                  countries scientific communities, it has lacked the necessary support and
                  guidance from NSF, the Executive Agency.

                  NSF's current policies and procedures are geared toward single-investigator
                  awards. Therefore, while these policies may be appropriate for the bulk of
                  NSF's awards, they are not adequate for managing the large awards
                  financed by the MRE account.

                  Additionally, while NSF has developed interim guidelines, these guidelines
                  do not address the areas of fund controls and project oversight of MRE
                  account projects. We believe strong policies that clearly recognize the MRE
                  as an appropriation separate from the R&RA account and establish the
                  appropriate controls and processes for managing this account are necessary.

                  Finally, the lack of clear guidance has led to a fragmented and decentralized
                  process of overseeing MRE projects. A cohesive set of policies and
                  procedures that cover all aspects of project management - fiom inception to
                  final closeout - will ensure that information on major changes in the status
                  of MRE projects is surfaced to the appropriate top-level policy makers as
                  well as enable the project to be supported by individuals having the
                  necessary knowledge and expertise from across NSF.

                  Page 17
Chapter 2                                                                      . .

Operations Funds Used to Cover
Construction and Commissioning Costs




We recommend that NSF's Assistant Director of the Mathematical and
Physical Sciences Directorate, and Acting Director of the Office of Budget,
Finance and Award Management and Chief Financial Officer:

   notify theNSF Director and NSB that the Gemini Project has exceeded
   its authorized Construction and Commissioning budget, and

   work with NSF's General Counsel to take the appropriate steps to
   address the potential legal issues, including addressing the need to
   reclassify $19.3 million in R&RA costs to the MRE appropriation
   account andlor seek Congressional authority to transfer R&RA funds to
   the MRE account or obtain additional MRE funds.


We further recommend that NSF's Acting Director of the Office of Budget,
Finance and Award Management and Chief Financial Officer:

   Issue compliance guidelines for managing MRE projects that, at a
   minimum, (1) provide clear definitions and criteria for the costs to be
   covered by the MRE account, (2) establish processes for ensuring
   realistic project cost estimates, including contingencies for
   unanticipated costs, (3) provide guidance consistent with appropriate
   law requirements for handling intra-agency cost sharing, and (4)
   identify NSF's expectations and standards for good project management
   including guidance for how projects will be monitored, accountability
   for traclung the project's cost, schedule, and technical performance, and
   methods for addressing problems such as cost overruns, schedule delays
   and changes in the technical scope of work.

    Update its current policies and procedures with respect to award
    management to recognize the need for a more extensive and higher level
    of oversight for MRE project awards. As part of this process, NSF
    should consider revising its current delegation of authority to require
    notification to the NSF Director and the NSB when MRE project costs
    exceed authorized funding levels.                                              +




    Provide training to all NSF staff engaged in MRE projects on the fund
    control and project management procedures necessary to effectively
    manage these programs, including compliance oversight procedures.          L




Page 18
                  Chapter 2
                  Operations Funds Used to Cover
                  Construction and Commissioning Costs




Agency Response   NSF management agreed with many of these recommendations.
                  Specifically, the Agency's response indicates its plans to update its policies
                  and procedures to include more detail for awarding and managing MRE
                  funded capital and infrastructure projects.

                  In addition, the Agency will continue to explore ways for more extensive
                  and higher level oversight of MRE project awards and has taken steps to
                  ensure that the Office of the Director is aware when the delegated authority
                  to increase NSB awards is being used. Further, NSF's response to this
                  report emphasizes the importance of providing more training to all NSF
                  staff who are engaged in planning and managing large projects and
                  considers the need for developing a permanent cadre of staff experienced in
                  project management principles and practices.

                  NSF management also has notified the Director and the NSB of the need for
                  additional funds for the Gemini Project and have contacted NSF's General
                  Counsel to address the legal issues in accounting for the Project's costs.

                  However, NSF's managers do not believe they have inappropriately
                  classified Construction and Commissioning costs as Operations costs, nor
                  that they have exceeded the authorized Construction and Commissioning
                  budget. In particular, they argue that the allocation of costs between the
                  R&RA and MRE appropriations is legally within the Agency's discretion
                  under appropriation law, although they acknowledge the merits of the
                  OIG's concerns for augmentation of the MRE account. Accordingly, NSF
                  plans to seek clarification from the Congress that funds from other sources
                  might be used to supplement those in the MRE appropriation.

                  Therefore, while the Agency has technically complied with our
                  recommendations, its decision not to recognize $52.8 million in project
                  costs as Construction and Commissioning rather than Operations is risky.
                  The Agency represented to the NSB and to the Congress that it would cost
                  $184 million for operational telescopes, which is not the case. The true
                  costs of obtaining fully operational telescopes is likely to be over $250
                  million, yet the Congress and the NSB have been told that Gemini is on
                  budget with a total cost of $184 million.

                  Continuing to keep these costs in the Operations budget, which is funded by
                  the R&RA appropriations account, masks the true costs of the construction
                  and commissioning of the Gemini telescopes. Further, it creates the
                  potential for losing credibility with the NSB and the Congress, which have


                  Page 19
Chapter 2                                                                                      - .
Operations Funds Used to Cover
Construction and Commissioning Costs




funding authority over these large capital projects. They set a standard of
poor financial and project management within the Agency creating a
disincentive for other projects to remain on budget. All of this, in turn,
creates the potential for higher scrutiny and greater funding limitations
should the Congress lose confidence and trust in NSF's management of
large projects.23




23 This is especially risky given the Agency's plan to seek clarification from Congress that
it may supplement the MRE account from other sources. This appears to seek a fix to a
problem that the Agency does not believe exists and may receive a less than favorable
response from the Congress.

Page 20

                                                                                               .   -
Chapter 3

Partners Encounter Difficulties Meeting
Agreed Contributions to Operations
                     Some of the Gemini Partners have had difficulties providing their
                     contributions to Operations according to their agreed share amounts.
                     Political and economic circumstances have severely limited the ability of
                     the South American partners to fully meet their funding commitments for
                     Operating costs. In order to cover for these shortfalls as well as to build a
                     contingency for further shortfalls, NSF advanced funds of approximately
                     $6.2 million to the Project. Also, NSF made payments on behalf of
                     noncontributing partners in exchange for future telescope observation time.
                     In so doing, NSF has exceeded its 50 percent funding cap. Also, although
                     the Project's cash flow projection plan suggests that all partners, including
                     NSF, will be in compliance with their percentage share requirements within
                     five years, this seems unlikely given the past and present difficulties facing
                     the South American partners.


Partner              The Gemini International Agreement (GIA) defines the percentage shares
                     that each of the seven Gemini partners has agreed to contribute for
Contributions        Operations costs of the project. The partner contribution percentage shares
Vary Significantly   to Operations are shown in Table 3.1.

from GIA                       Table 3.1 Contributions to Operations by Percentage

                                      United States               50%
                                      United Kingdom             25%
                                      Canada                      15%
                                      Chile                        5%
                                      Argentina                  2.5%
                                      Brazil                     2.5% 100%
                                      ~ustralia'                   5% 105%'

                     However, partner contributions to operations have varied significantly with
                     their agreed upon percentage share commitments. As indicated in the
                     following table, Brazil, Argentina, and Chile, for the period 1996 to 1999,

                     ' In 1998, Australia was added as a seventh partner, without changing the existing
                     commitments of the other partners. Australia's contributions were to provide for additional
                     "value-added" enhancements to the Project, thereby resulting in funding to the Project at
                     105 percent.
                       In November 1999, the Board recalculated the contribution shares to operations to include
                     the newest partner, Australia, but has not yet amended the GIA. When the agreement is
                     amended, the recalculated shares would be United States 47.62 percent, United Kingdom
                     23.81 percent, Canada 14.39 percent, Chile 4.76 percent, Australia at 4.76 percent,
                     Argentina 2.38 percent, and Brazil at 2.38 percent.

                     Page 21
                    Chapter 3
                    Partners Encounter Difficulties Meeting Agreed
                    Contributions to Operations




                    have paid significantly less than they agreed or not at all. On the other
                    hand, NSF7scontributions have been substantially more than that which
                    was agreed.

                    Table 3.2 Comparison of 1996-1999 Operations Contributions
                            to Contributions ~ e c e i v e d ~

                                    Amounts                  Amounts
                                     Due to       Amounts     Held in
                                   Operations    Obligated   Reserve               Difference
                    United States  $14,9 17,432 $2 1,098,000                        $6,180,569
                    United Kingdom   7,458,7 16
                    Canada           4,475,229
                    Brazil             745,872
                    Argentina          745 3 7 2
                    chile            1,491,743
                    Total          $29,834,863



Several Factors     The South American partner countries have not met their funding
                    commitments primarily because of uncertain political and economic
Affected Partller   conditions. The partner countries, including NSF, have been reluctant to
Contributions       initiate default actions as a means of pressuring countries for their payments
                    to operations.' Therefore, to ensure Operations activities were able to
                    move forward, NSF contributed amounts greater than it was required to
                    both cover for the shortfalls of the South American partners as well as
                    establish a cash reserve for future shortfalls.

                    Representatives from Brazil stated that they have had difficulty gaining
                    their government's approval for Gemini Operations funding. Nevertheless
                    they stated that they have reaffirmed their intention to meet their
                    commitments to the project. The Gemini Board is optimistic about Brazil's
                    ability to fully contribute in the future.

                    A newly elected government replaced Argentina's previous government
                    less than a year ago. Economically, Argentina has been affected by the

                     Funds received and obligated from Australia during this time are not included in this
                    comparison because until November 1999 the Board allocated the Australian partner's
                    funds to value-added activities.
                     Brazil's payment of $328,000 for 1999 was paid in the first quarter of 2000.
                      In contrast, the Gemini Board initiated the default process toward a partner in 1998 for
                    nonpayment to Construction and Commissioning, resulting in receipt of the partner's
                    contribution.

                    Page 22
                        Chapter 3
                        Partners Encounter Difficulties Meeting Agreed
                        Contributions to Operations




                        devaluation of money in the mid-1990s of its largest trading partner, Brazil.
                        Although it is an original partner, in 1997 Argentina rescheduled its
                        contributions to Project Operations to begin in 2000. Argentina recently
                        notified the Gemini Board that it might continue to have difficulty
                        providing funds for Project Operations.

                        To date the Chilean government has not approved the funding for
                        Operations. Chile's new government is in the process of reevaluating its
                        commitment to the project. However, since Chile's scientific community
                        has less than 30 astronomers, it will likely not take advantage of all of the
                        observation time it receives as host ~0untr-y.~ Therefore, Chile may not
                        wish to provide funding to assure additional use of the telescope.

                        Further, the major partner countries did not believe it was feasible to initiate
                        default proceedings to pressure the noncontributing countries for payment.
                        This is because the three original partners were well aware from the outset
                        of the financial risk of the South American partners defaulting. The original
                        partners accepted the risk in order to gain support for the project.

                        The governments of the US, UK and Canada limited their partner
                        contribution percentage to 50 percent, 25 percent and 15 percent,
                        respectively, in order to foster an international collaboration. Therefore, to
                        secure full funding for the remaining 10 percent, the Project sought the
                        South American partners. The US, UK and Canada were satisfied that the
                        South American partners could at least meet their share of costs for the
                        larger Construction and Commissioning budget, and if necessary, the US
                        andlor the UK were prepared to cover the unmet Operations budget
                        contributions. Accordingly, the Gemini Board has been very lenient with
                        the noncontributing partners and has avoided taking default actions.


NSF Provides            In order to ensure that the Project's operating cash needs were continuously
Contributions to Meet   met, NSF has shouldered the responsibility of providing the necessary
                        additional funds. Specifically, through December 1999, NSF advanced
Shortfalls
                        approximately $6.2 million to meet the Operations costs of the project, in
                        addition to funding its own $14.9 million contribution. These advances
                        covered not only the South American partner shortfalls, but also allowed the
                                                                                                 7



                          Chile receives ten percent of observation time as host country to Gemini South. As a
                        contributing partner, Chile receives an additional 4.4 percent of observation time at both
                        facilities and voting rights on the Board.

                        Page 23
                      Chapter 3
                      Partners Encounter Difficulties Meeting Agreed
                      Contributions to Operations




                                                                                               -
                      UK and Canada to partially delay their initial contributions.' In addition,                      . .

                      NSF's advances enabled the Project to build a cash reserve for future
                      shortfalls by holding and not releasing to the project $3.7 million in
                      payments received fiom the UK and Canada in 1997 and 1998. The
                      Project's Managing Organization currently estimates future shortfalls could
                      be as much as $8.6 million8 through 2005.

                      In addition, NSF and other major partners agreed to purchase future
                      observation time from noncontributing partners as a means of offsetting
                      their financial commitments. The 1997 Administrative Guidelines of the
                      GIA provided for this practice in order to enable a noncontributing partner
                      to avoid default and thereby lose its entire investment for missing its annual                   -    ,


                      contribution to Operations.

                      This practice requires additional up fi-ontfinds from the purchasing partner.
                      For example, in 1999, NSF purchased $805,000 in time from ~ h i l eand,~
                      has budgeted another $400,000 for this purpose in 2001. These finds are in
                      addition to both advances NSF has provided and annual contributions for
                      Gemini Operations.
                                                                                                                       .    .
                          Also, NSF will not receive the benefit of these finds until the telescopes are
                          filly operational in several more years. Observing time purchased in 1999,
                          and paid for in 2000, will not be realized until 2002. Therefore, while NSF
                          may ultimately be able to better support its astronomical community with
                                                                                                                       I.
                          additional observation time, that benefit is several years in the offing, and in
                          the meantime NSF is having to incur these costs in the present.
                                                                                                                       1



NSF Needs                 AS a result of making up for the shortfalls of noncontributing countries,
                          NSF has paid more than it planned and has currently exceeded the fifty
Realistic Cash Plan       percent fimding cap imposed by Congress and the NSB. Currently, as
for Operations            shown in able 3.3 below, NSF has contributed 73% or 23% more than its                        i


                          authorized percentage share.


                      7
                       The UK and Canada were fully prepared to meet their percentage commitment, but the
                      advanced funds provided by NSF in 1996 were such that, this was not required.
                       This amount is the minimum amount needed under current project plans. The Board is
                      considering increased contributions needed for higher than expected operations, indirect
                      costs for instruments, and inflation, that will increase cash needs substantially from current
                      glans.
                       In 1999, the US purchased 20 nights at $805,087, the UK purchased 10 nights at $402,543,
                      and Australia purchased 3 nights at $120,763 from Chile to make Chile's 1998 and 1999
                      contributions to operations.

                          Page 24
     Chapter 3
     Partners Encounter Difficulties Meeting Agreed
     Contributions to Operations




     Table 3.3 Partner Percentage Contributions to Operations"'

                              Amount            Amount
                               Due               Paid
     United States              50%             73.0%
     United Kingdom            25%              23.4%
     Canada                     15%              15.2%
     Brazil                    2.5%               1.2%
     Argentina                 2.5%                 0%
     Chile                       5%                 0%

     Further, as long as the South American partners are in arrears, it is likely
     that NSF will continue to fund amounts greater than its fifty- percent share.
     Accordingly, the Project's future funding plans should appropriately
     recognize and realistically address this risk.

     However, the Project's current Operations Cash Flow Report does not
     reflect this risk. To the contrary, this report indicates that all partners,
     including the South American partners, will fully meet their funding
     commitments by 2005. Specifically, it suggests that the noncontributing
     partners will pay over the next 5 years, not only what they have not paid to
     date, but also their full percentage share of all future commitments. It is
     expected that these higher payments will be used to reduce NSF's future
     contributions, thereby offsetting the advances it has made to date to cover
     funding shortfalls. The end result is a cash projection that over the 10 year
     period 1996 to 2005 "smoothes" out the contributions of all partners,
     indicating all partners as having met their required percentage contributions
     by 2005 and NSF as no longer exceeding its funding cap.

     While these projections for cash commitments are worthy goals, they do not
     reflect the past or present reality of the South American partners. To the
     extent that the South American partners continue to face economic
     challenges in meeting their commitments, this projection appears overly
     optimistic and not reliable as a basis for setting future contribution amounts.
     Further, given that NSF would likely be most affected by any unrealistic
10
  We recognized all possible partner payments for this percentage comparison to the amounts
due. Accordingly, the "Amount Paid" column includes $3,698,561paid by the United
Kingdom and Canada that NSF did not apply to the amount due, resulting in 112.8 percent
total payments compared to 100 percent of payments due. This occurred because NSF
advanced more funds than were due from the US and, rather than offsetting those advances
with payments received by the United Kingdom and Canada, withheld the funds. See "NSF
Provides Contributions to Meet Shortfalls", page 27, for further details.

     Page 25
                  Chapter 3
                  Partners Encounter Difficulties Meeting Agreed
                  Contributions to Operations




                  projections, reliance on this cash flow report further delays senior NSF
                  management and the NSB the opportunity to proactively consider options
                  for handling future financial needs.


Conclusions and   In the interest of a successful collaboration in the long term, NSF
                  endeavored to provide the financial support necessary to stabilize the
Recommendations   project's cash flows in the first years of Operations. By relying on NSF to
                  stabilize early cash flows to Operations, the Gemini Board did not have to
                  consider other alternatives to deal with the cash flow problems. The actions
                  taken by NSF and the Gemini Board optimistically relied on improved,
                  stable cash flows to operations in later years that are not likely to occur. The
                  risk of nonpayment to Operations by Argentina and Chile continues to be
                  high. As a result, NSF has effectively increased its participation in the
                  project operations in excess of its intended fifty percent, and is likely to
                  sustain a higher level of participation in the future.

                  Consequently, we recommend that NSF's Assistant Director of the
                  Mathematical and Physical Sciences Directorate, and Acting Director of the
                  Office of Budget, Finance and Award Management and Chief Financial
                  Officer, representing the Executive Agency:

                      Release to the Project as US contributionsthe $3.7 million in funds
                      currently held in reserve.

                      Work with the Gemini Board to ensure that a realistic assessment is
                      conducted of each partner's ability to meet its percentage share
                      commitment and develop a 5-year plan for operations for 200 1-2005.
                      Safeguards established to meet cash shortfalls should spread the risk of
                      meeting cash shortfalls equitably among the partners, and not rely
                      primarily on NSF.

                  To the extent that this plan indicates funding shortfalls on the part of some
                  countries, the NSF may wish to seek the approval necessary to exceed the
                  fifty- percent funding cap.




                  Page 26
                  Chapter 3
                  Partners Encounter Difficulties Meeting Agreed
                  Contributions to Operations




Agency Response   NSF agreed that a 5-year operations plan is needed and indicated that such a
                  plan is presently under review as part of the AURA proposal for renewal of
                  the cooperative agreement to manage Gemini. An assessment of the
                  partners' abilities to meet commitments is part of the fiscal planning of the
                  partnership. The projected budget will receive an independent review
                  examination in order to establish its credibility. Further, the Gemini Board
                  has expressed resolve to enact the provisions of the GIA regarding default
                  of noncontributing members.

                  However, NSF's response was unclear as to whether it agreed or disagreed
                  with the OIG's recommendation to release the $3.7 million funds to the
                  Project. NSF indicated only that it will consider this OIG recommendation.
                  In light of future operations budgets, the Agency's purpose for holding $3.7
                  million of funds in reserve over the next five years that are now available
                  for Project use is unclear. In August 2000 the MPS requested additional
                  budget authority to cover increased Gemini expenditures for operations of
                  $7.5 million that could have been reduced by the $3.7 million being held in
                  reserve for operations. We believe NSF should use available cash for US
                  contributions to operations before requesting any additional funding and
                  therefore continue to recommend that NSF release the $3.7 million in funds
                  held by NSF to the Project.




                  Page 27
Appendix A

tiemini Governance


             In the early 1990ts, the United Kingdom, through the Science
             and Engineering Research Council (SERC), and Canada, through
             the National Research Council (NRC), were each supporting
             astronomical facilities on Mauna Kea, Hawaii. At the same
             time, the United States, through the National Science Foundation
             (NSF), was supporting astronomical facilities on Cerro Tololo,
             Chile. In an effort to encourage scientific collaboration among
             these countries, NRC, SERC and NSF began discussing the joint
             construction and operation of twin 8-meter telescopes on Mauna
             Kea, Hawaii and Cerro Pachhn, Chile, to be known as the
             Gemini Facilities.

             These three nations, the Parties, entered into a Memorandum of
             Understanding effective September 15, 1992, and subsequently
             replaced this with an International ~ ~ r e e m e n(Agreement),
                                                                 t'
             which became effective October 28, 1993. The Agreement
             begins by stating that the Parties desire "to achieve full
             intellectual and economic benefits to all Parties in the execution
             of Gemini with a fair and equitable division of responsibilities
             and benefits among the Parties, consistent with their
             contributions and the timely and cost effective execution of
             ~ e m i n i . "The
                             ~ Agreement covers the construction,
             commissioning and operation of the Gemini telescopes and
             spells out such details as the Parties' contributions and
             observation rights. The Agreement also describes the
             contemplated management structure of the Gemini project
             (Gemini).




             '  Agreement Among: The National Science Foundation of the United States
             of America, The Science and Engineering Research Council of the United
             Kingdom of Great Britain and Northern Ireland, The National Research
             Council of Canada Concerning the Construction and Operation of an 8 Meter
             Telescope on Mauna Kea, Hawaii and an 8 Meter Telescope on Cerro Pachbn,
             Chile to be Known as the Gemini Facilities, July 28, 1993.
             2
                Id. at 3.
                -

             Page 29
                Appendix A
                Gemini Governance




International   Currently, Gemini is made up of the following international
                partners :
Partners
                          United States - National Science Foundation (NSF)
                          Canada - National Research Council (NRC)
                          United Kingdom - Particle Physics and Astronomy
                          Research Council (PPARC)
                          Chile - Comisi6n Nacional de Investigaci6n Cientifica y
                                  Tecnol6gica (CONICYT)
                          Australia - Australian Research Council (ARC)
                          Argentina - Secretaria de Ciencia y Technologia
                          (SECYT-CONICET)
                          Brazil - Ministry of Science and Technology (MST)

                Originally, the Partners consisted of the sole Parties to the
                Agreement (NSF, NRC and SERC (the predecessor to PPARC)).
                However the Agreement specifically contemplated additional
                Partners. The original financial provisions called for
                contributions as follows:

                                 United States          50%
                                 United Kingdom         25%
                                 Canada                 15%

                The remaining 10 percent was to be provided by partners Brazil,
                Argentina, and Chile, added in 1994.' Section 8 of the
                Agreement covers "New Membership" and provides that new
                Partners may join Gemini "subject to the unanimous agreement
                of the [current] ~artners."~
                                           When a new Partner joins, the
                Agreement is amended so that the new Partner becomes a Party
                to the ~greement.'

                The Agreement was further amended in May of 1998 to add the
                Australian Research Council as a ~ a r t n e r Australian
                                                               .~         financial
                contributions were considered new funding, raising the total

                '   Id. at 10.
                    -

                    Id.
                    -
                  See Second Amendment to the Agreement Concerning the Construction
                and Operation of an 8 Meter Telescope on Mauna Kea, Hawaii, and an 8
                Meter Telescope on Cerro Pachbn, Chile, to be Known as the Gemini
                Facilities, May 1998.

                Page 30
                          Appendix A
                          Gemini Governance




                          funding available to 105 percent. Currently, the contributions,
                          for the construction phase of the project are as follows7:

                                          United States              47.62%    (501105)
                                          United Kingdom             23.81%    (251105)
                                          Canada                     14.29%    (151105)
                                          Chile                       4.76%    (51105)
                                          Australia                   4.76%    (51105)
                                          Argentina                   2.38%    (2.51105)
                                          Brazil                      2.38%    (2.51105)

Partner Project Offices   "Gemini partners have established project offices to coordinate
                          their contacts with the international project." The purposes of
                          these offices are to "(i) support the Gemini Director in carrying
                          out the project, (ii) maintain communications between the
                          project and their science community, and (iii) represent their
                          interests in ~ e m i n i . "A~listing of these project offices,
                          including links to individual web sites, can be found at
                          http://www.gemini.edu~'project~contacts.html.



Gemini Board              The primary supervisory and regulatory body over Gemini is the
                          Gemini Board. While originally consisting only of members
                          from the original three partnersand the ~ i s tthe
                                                                          , current makeup
                          of the Board is as follows:

                                Four members appointed by the United States
                                Two members appointed by the United Kingdom
                                Two members appointed by Canada
                                One member appointed by Chile
                                One member appointed by Australia
                                One member appointed, on an alternating basis, by
                                Argentina and Brazil
                                One member appointed by the University of Hawaii
                                       (voting rights only on scientific matters pertaining
                                       to Gemini North)
                          The Agreement spells out in Section 10 the Responsibilities of

                            Without decreasing existing contribution commitments, Australia was added
                          to provide incremental value to the project.
                          8
                             Association of Universities for Research in Astronomy, Inc., Memorandum
                          Re: Gemini Organization, August 30, 1993.

                          Page 3 1
                    Appendix A
                    Gemini Governance




                    the Gemini Board. These include ensuring that "Gemini is
                    carried out in accordance with the terms of [the] Agreement;"
                    and reporting "at least once per year in writing to the parties on
                    the progress of Gemini including the financial situation,
                    projected timescales and the estimated cost to c ~ m ~ l e t i o n . " ~

                    The Gemini Board is not to employ staff, however it may request
                    the Executive Agency to supply staff to assist with various
                    oversight and management tasks. In addition, the Board is
                    supplied, at the expense of the Executive Agency, a Secretary for
                    the Board and associated administrative support.

                    The Gemini Board also has the responsibility for reviewing and
                    approving various administrative decisions such as:

                                  Annual and multi-year Gemini budgets
                                  Subawards made by the Managing Organization over
                                  $1 million
                                  The Executive Agency's selection of the Managing
                                  Organization
                                  Annual accounts and auditor's reports of the
                                  Managing Organization and the Executive Agency
                                  The Managing Organization's management plan; and
                                  Other scientific and administrative decision^.'^



Gemini Finance      The Gemini Finance Committee (GFC) of the Gemini Board,
Committee           made up of eleven members representing the international
                    partners, oversees the financial matters of Gemini. The GFC
                    monitors the budget, cash flow and expenditures of the project,
                    and provides advice to the Gemini ~ o a r d . "




Executive Agency.   The National Science Foundation (NSF) is an independent
                    agency of the Executive Branch of the United States
National Science
                         Agreement, supra note 1 at 12.
                    lo   Id. at 12-13.
                    "
                          Gemini Project Annual Report 1998.

                    Page 32
                   Appendix A
                   Gemini Governance




National Science   Government. The Congress created NSF in 1950 through
Foundation         organic legislation, the National Science Foundation Act of
                   1950,12and gave it additional authority through the Science and
                   Engineering Equal Opportunities ~ c t and  ' ~Title I of the
                   Education for Economic Security ~ c t . Its ' ~mission, created by
                   its organic legislation, is to "promote the progress of science; to
                   advance the national health, rosperity, and welfare; and to
                                                   P
                   secure the national defense." NSF carries out this mission
                   through "programs that invest over $3.3 billion per year in
                   almost 20,000 research and education projects in science and
                   engineering."l 6

                   "The Foundation consists of the National Science Board of 24
                   part-time members and a Director (who also serves as ex officio
                   National Science Board member), each appointed by the
                   President with the advice and consent of the U.S. Senate. Other
                   senior officials include a Deputy Director who is appointed by
                   the President with the advice and consent of the U.S. Senate, and
                   eight Assistant ~irectors."" Under the direction of the NSF
                   Director are the following seven scientific directorates:
                   Biological Sciences, Computer & Information Science &
                   Engineering, Education & Human Resources, Engineering,
                   Geosciences, Mathematical & Physical Sciences, and Social,
                   Behavioral & Economic Science. Within each directorate are
                   divisions and the programs which fund the research and
                   education projects.

                   Within the Mathematics & Physical Sciences Directorate is the
                   Division of Astronomical Sciences (AST). In addition to
                   providing support through individual investigator awards, AST
                   "supports the development and operation of three National

                   l2  42 U.S.C. $5 1861 et seq.
                   I'  42 U.S.C. $ 1885.
                   l 4 20 U.S.C. $9 391 1-3922.
                       NSF Mission Statement.
                   l6 http://~~~.n~f.g~~/home/about/~tart.htm.
                   l7 http://www.nsf.gov/home/about/creation.htm.
                   l 8 http://www.nsf.gov/mps/ast/start.htm.
                   l9 While, information is to flow between the Gemini Board and the Managing
                   Organization through the Executive Agency, in practice, the Managing
                   Organization often communicates directly with the Gemini Board.
                   20 Agreement, supra note 1 at 13-14


                   Page 33
Appendix A
Gemini Governance




Astronomy Centers: the National Optical Astronomy
Observatories (NOAO), the National Radio Astronomy
Observatory (NRAO), and the National Astronomy and
Ionosphere Center (NAIc)." *   '
NSF was named in the International Agreement as the Executive
Agency of Gemini. It is through AST that the US provides its
share of funding for the construction and operations of Gemini.
AST provides the executive secretary to the Gemini Board, and
administers the cooperative agreement with the Managing
Organization. The Executive Agency acts as a conduit for
information from the Gemini Board to the Managing
~ r ~ a n i z a t i oand
                     n ' ~its responsibilities, under the International
~ ~ r e e m e n tinclude:
                    ,~'

            Select the Managing Organization
            Receive and maintain records of contributions from
            the International Partners
            Transfer contributions to the Managing Organization
            Facilitate the movement of labor, materials and
            equipment between the US and Chile and the
            International Partner countries
            Ensure full access by the International Partners to the
            Gemini facilities
            Ensure that the contributions provided for Gemini are
            properly accounted for annually
            Ensure that agreements between the Managing
            Organization and subawardees do not conflict with
            the International Agreement; and
            Provide the Gemini Board with an Executive
            Secretary.




Page 34
               Appendix A
               Gemini Governance




Hosts          The University of Hawaii (LEI) has a lease from the State of
               Hawaii for all land within a 2.5 mile radius of its own 2.2 meter
               telescope located on Mauna Kea. The Gemini North telescope
               lies within this radius and NSF subleases the land from UH.
               Thus, UH acts as the host site for the Gemini North Facility.
               UH's Institute for Astronomy (IfA) conducts research programs
               at and receives observing time on each of the telescopes located
               on Mauna Kea including Gemini North.

               The Gemini South facility is located on top of Cerro Pachbn,
               Chile. Thus, Chile and the Chilean Astronomy are the hosts for
               Gemini South.

               The Agreement specifies that UH and Chile "shall be guaranteed
                10% of the Observing ~ i m e " "at their respective host facilities.
               In addition to receiving observing time, UH also has a
               representative on the Gemini Board (subject to certain voting
               restrictions) and may have a representative attend all Board
               committee meetings and formal meetings concerning Gemini
               that involve all of the.~arties." As one of the International
               Partners, Chile has a seat on the Gemini Board and full voting
               rights.

Managing       The Association of Universities for Research in Astronomy, Inc.
               (AURA), founded in 1957, is a consortium of 29 US institutions
Organization
  -            and 5 international affiliates. Two are in Chile, and one each in
               Mexico, Canada, and Australia. Its mission is to "advance
               astronomy and related sciences, to articulate policy and respond
               to the priorities of the astronomical community, and to enhance
               the public understanding of ~cience."'~

               AURA has three major components. First, under a contract with
               NASA, AURA operates the Space Telescope Science Institute,
               which carries out the mission of the Hubble Space Telescope.
               Second, through cooperative agreements with NSF, AURA
               operates the National Optical Astronomy Observatories
               (NOAO).

               2'   Id. at 22.
               22   -
                    K a t 10-11.
               23AURA Mission Statement, http://www.aura-
               astronomy.org~WWAstatement.html.

               Page 35
Appendix A
Gemini Governance




Finally, through another cooperative agreement with NSF,
AURA acts as the Managing Organization of Gemini. "As
managing entity, AURA is responsible to the NSF for executing
the project within approved budgets and policies, and within the
terms of a mutually agreeable Cooperative Agreement (a form of
~ o n t r a c t ) . "AURA'S
                     ~~     responsibilities, under the International
~ ~ r e e m e n tinclude:
                      ,*~

      Overall management of Gemini
      Development of management plans (to be approved by the
      Gemini Board)
      Employ key Gemini staff
      Carry out decisions of the Gemini Board as transmitted by
      the Executive Agency
      Keep proper accounts and records
      Prepare construction and operations budgets
      Facilitate access to the work sites
      Establish safety rules; and
      Report to the Gemini Board through the Executive Agency.




24   Memorandum, "Gemini Organization", f   r   o   m   , August 30,
1993.
25
  Agreement, supra note 1 at 14-15.

Page 36
                  Appendix A
                  Gemini Governance




AURA Board        The AURA Board, as well as the Gemini Board, is responsible
                  for providing oversight to the project. The AURA Board is
                  made up of one Director from each of AURA'S members and up
                  to 12 Directors-at-Large.

                  The AURA Board appoints the AURA President and the Gemini
                  Director, and reviews their performance. The Board meets
                  annually and elects or appoints an Executive Committee and
                  working committees as necessary to carry out its functions
                  between annual meetings


AURA President    The AURA President is the Chief Executive Officer of the
                  corporation and an ex officio member of the AURA Board and
                  its major committees. The AURA President reports to the
                  AURA Board and gives formal direction to the Gemini Director.

                  Gemini Science Committee

                  Reporting directly to the AURA President with science policy
                  recommendations being approved by the Gemini Board, the
                  Gemini Science Committee (GSC) provides advice on scientific
                  priorities to the Gemini Project. The GSC is made up of fifteen
                  members, in addition to the chair, with six from the US
                  (including some NOAO scientists), three from the UK, two from
                  Canada and one from each of the remaining Partners. Each
                  Partner country determines how it will appoint its representatives
                  to the GSC.


Gemini Director   The Gemini Director is appointed by the AURA Board and
                  formally reports to the AURA President. The Director is
                  responsible for the overall conduct of the Gemini Project and
                  heads up the International Gemini Project Office.

                  International Gemini Project Office

                  The International Gemini Project Office (IGPO) is the
                  administrative unit in charge of the day-to-day management and
                  operation of the Gemini Project. The IGPO is led by the Gemini
                  Director and, as of August 1, 1999, included a total of 93

                  Page 37
Appendix A
Gemini Governance




employees. These employees fall primarily under one of four
units headed by the Operations Manager, the Project Manager,
the Head of Instrumentation and Development and the Project
Scientist.

United States Gemini Program. Under a cooperative
agreement with NSF, AURA operates the National Optical
Astronomy Observatories (NOAO). NOAO, headquartered in
Tucson, Arizona, "[provides] leadership in the establishment and
operation of premier ground based astronomical research
facilities, [promotes] public understanding and support of
science, and [advances] all aspects of U.S. ground based
astronomical research."26

Within NOAO are four major divisions. The Cerro Tololo Inter-
American Observatory located in northern Chile operates three
telescopes. Kitt Peak National Observatory, headquartered in
Tucson, operates four telescopes on Kitt Peak Mountain, about
55 miles southwest of the city. The National Solar Observatory,
headquartered in Tucson, also has five solar telescopes on Kitt
Peak Mountain, as well as telescopes on Sacramento Peak, New
Mexico.

The fourth division of NOAO is the Science OPErations
division (SCOPE). SCOPE'Smission is "to provide the
community interface and support before and after observing runs
for all nighttime facilities available to the astronomical
community through NOAO, including the Gemini t e l e s ~ o ~ e s . " ~ '
Also included in SCOPE is the United States Gemini Project
(USGP), established in 1993, which support the U.S. national
interests in Gemini. The USGP acts as the United States Partner
Project Office and is the "gateway for the U.S. astronomical
community to the international Gemini

U.S. Workpackages. Among the responsibilities delegated to the
USGP is the development and management of U.S.
workpackages for instrumentation needed for Gemini. NOAO
through USGP determines the instrumentation needs and then

26   NOAO Mission Statement.
27   http://www.noao.edu/noao/intro.html.
28   http://~~~.n~a~.edu!usgp/.

Page 38
Appendix A
Gemini Governance




seeks to fill those needs from qualified sources.

Non-U.S. Workpackages. The IGPO is also responsible for the
management of non-U.S. workpackages. These instrumentation
workpackages needed for Gemini have been distributed to the
UK, through the PPARC, Canada, through the NRC, and
Australia through the ARC. These agencies have provided the
instrumentation themselves rather than seeking non-
govemmental sources.




Page 39
Appendix B

OIG Estimate of Construction
and Commissioning Costs
         Description                                                     Costs         Scope*
a) lnstrument Development Fund
Gemini Multi-Object Spectrograph (GMOS)                              $      875,000
Small Gemini Multi-Object Spectrograph (GMOS)                                99,000
Near Infrared Arrays                                                        500,449
Near Infrared Spectrograph (NIRS)                                           607,227
Near Infrared Spectrograph IFU (NIRS)                                       354,360
Polarization Modulator                                                      677,000
Near Infrared Arrays (OIWFS)                                                250,000
Near Infrared Arrays (OIWFS)                                                 39,000
Near Infrared Imager (GRISMS)                                                90,571
Mid Infrared Imager (TRECS)                                               1,258,000
High Resolution Optical Spectrograph (HROS)                               3,175,000
Flamingo Visitor Instrument Support                                         100,000
Total Instrument Development Fund                                    $    8,025,607

b) Facilities Development Fund
La Serena Lab                                                                            In
Calibration Unit                                                                         In
Array and Controller Development (ALTAIR)                                                In
Rework Contingency                                                                       In
Adaptive Optics Upgrade                                                                 Out
Adaptive Optics System North (ALTAIR)                                                    In
Laser Beacon Adaptive Optics System South                                               Out
Visitor lnstrument Support (HOKUPAA)                                                     In
Total Facilities Development Fund

c) Hilo Base Facility                                                $    4,382,000     Out

d) Southern Base Facility                                            $     1,500,000    Out

e) Other                                                             $     1,300,000    Out

f) Integration and Test, and Commissioning                           $ 17,566,892        In

Total Gemini Operations Budget Funds (a - f)
Total Gemini Construction Budget

Total Construction and Commissioning Costs                           $236,830,161

*In scope costs were included in the construction and commissioning budget
established by the GIA. Out of scope costs were not considered in the GIA budget,
but were approved by the Gemini Board at a later date.


                                  Page 40
Appendix C

OIG Comparison of Project
Costs to NSB Approved Budgets


                                           Construction            Operations
OIG Analysis of Project Costs:             Through 2006           Through 2000         Total

Instrument Development Fund
Facilitie~Development Fund
Hilo Base Facility
South Base Facility
Operations and Maintenance
Other
Total Operations Reclassified*
Construction
Gemini Board Approved Budgets

NSB Approved Budgets                       $     176,000,000      $   28,400,000   $   204,400,000
Add Other NSF Funding                              8,000,000                   0   $     8,000,000
Total NSB Approved Budgets                 $     184,000,000      $   28,400,000   $   212,400,000

Difference Between NSB
and Gemini Board Approved Budgets          $     (52,830,161)     $    8,880,082   $   (43,950,079)

Percent Change                                           -28.7%           31.3%             -20.7%

* The Managing Organization classifies $18.8 million
of the $52.8 million to be upgrades, chargeable to the
operations instrument development fund.




                                      Page 4 1
Appendix D

OIG Estimate of Unauthorized
Transfer
As of June 28,2000, NSF has obligated $29.1 million from the R&RA account for Gemini
Operations. The following table represents the difference between the amounts requested each
year in NSF's budget request1 to the Congress and the amounts actually obligated during the
year.

                     R&RA               Actual R&RA
  Fiscal Year     Budget Request         Obligations        Difference
     1996           $               -    $   3,817,444     $    3,817,444
     1997             5,100,000              5,3 17,444           2 17,444
     1998             6,260,000              5,715,469          (544,53 1)
     1999             6,980,000              8,030,000          1,050,000
     2000             7,250,000              6,2 16,313       (1,033,687)
                   $ 25,590,000          $ 29,096,670      $    3,506,670

As shown in Appendix C, we have estimated true Operations ramp-up costs as $19.5 million.
Because NSF's share of Gemini Operations costs is fifty percent, we have calculatedr$9.8
million of R&RA funds that should have been obligated from the MRE account.

 Operations Ramp-Up Costs
 (see Appendix C)                                          $    19,519,918

NSF Share (50%)                                            $     9,759,959

Based on these amounts, we have estimated the amount of R&RA funds that were used to cover
excess Construction and Commissioning costs - the unauthorized transfer amount - as $19.3
million. This represents the difference between the amount that NSF actually obligated from
R&RA for Operations and the amount it should have obligated from R&RA for Operations.

    Actual R&RA            NSF Share of               Difference
     Obligations          True Operations             (Transfer)
  $        29,096,670    $        9,759,959         $       19,336,711




                              ' These amounts have not been adjusted based on the current plan submitted
                              with each new budget request. Thus, the FY 1996 amount is the amount shown
                              in the FY 1996 budget request, not the FY 1996 amount reflected as the current
                              plan in the FY 1997 budget request.

                                  Page 42
    Appendix E

    Timeline of
    Gemini Board Decisions

      Gemini
      Board
     Approval
      Dates                             Description                         Reference
d                Transition of Commissioning to Operations-to ease Gemini Implementation
       1992      the transition to operations and minimize           Plan 10192
                 commissioning costs, the project planned to ramp up
                 operations personnel early.

                 Construction Personnel-Some construction                   Gemini Plan for
                 personnel would be identified to operations.               Operations 4/93
        1993
                 Commissioning-All commissioning costs would be
                 identified to operations.

                 Instrument Completion-The project recommended              Recommended to Gemini
                 that operations funds be used to complete the initial      Board by Project Scientist,
        1995     planned instruments because the construction budget        accepted, 11/95
                 was insufficient.

                 Integration and Test-System integration and test           ,              Project
                 costs were planned as part of operations.                  Engineer presented to
                                                                            Science Committee on
        1995     Base Facilities-Funding needed to construct the Hilo       8/95, later approved at
                 base facility was identified as operations.                11/95 Gemini Board
                                                                            meeting.

                 Test Equipment-Was        to be identified to operations   Accepted by Gemini
                 beginning in 1997.                                         Board, 11/95 based on
                                                                            updated presentation by=
        1996     Communications-These costs, such as                        ,          Project
                 computer/video links and network upgrades, were            Engineer.
                 identified to operations.

                 Contingency for Rework-An amount of $2 million             Recommended to and
                 was identified to the Facilities Development Fund, an      accepted by the Gemini
        1999     operations fund.                                           Board at the May 1999
                                                                            meeting.




                                 Page 43
Appendix F

Agency's Response


                                           NATIONAL SCIENCE FOUNDATION
                                                4201 WILSON BOULEVARD
                                               ARLINGTON. VIRGINIA 22230




                    -
         MEMORANDUM                                                                       OCT 1 9


                     Office of Inspector General                          m

        From:
                    Directorate for Mathematical and Physical Sciences                      I


        Subject:    Draft Audit of the Financial Manasement of the Gemini Proiect

        Thank you for the opportunity to review and comment on the draft audit of the financial management of
        the Gemrni Project. We appreciate the time you have allowed us to prepare a thorough response, and
        would llke to thank your staff for providing their worksheets and other analyses. Our reply, below, follows
        the structure of the draft report We offer comments on sections of the report, and provide responses to
        the recommendations. We would be happy to share the more detailed underlying work, and to discuss
        our response with you

        I.Executive Summary

        The OIG draft report on the Gemlnl Project represents a considerable effort to examine one of the
        National Science Foundation's largest, most complex projects. Such efforts are important to all of us as
        we seek to ensure the success of projects and full accountability for their execution.

       We belleve that Gemini is a remarkable achievement on several counts. Developmentof the telescopes
       has been a challenging, innovative and promising undertaking. The Project has worked to stay at the
       forefront as science andtechnology have continued to evolve - this is exceptional science, with the
       potential for exciting discoveries. New ground has also been broken in international cooperation. The
       Project reflects enormous efforts in uncharted waters to make a complicated international partnership
       work - balancing different national interests and conditions, and reconciling different national laws. We
       believe that NSF, as Executive Agency for the Gemini Project, has earned the trust and faith of our
       partners. Finally, the funding boundaries for delivery of a suite of capabilities to meet the Gemini sclence
       requirements have brought both challenge and discipline to the Project.

       The OIG report on Gemini includes financial and legal analyses, and management recommendations.
       With respect to the analyses of costs and appropriations law, we differ with some of the interpretations in
       the draft report. W~threspect to the recommendations, we believe they include many positive suggestions
       to strengthen the management and oversight of large projects.

       We are pleased that the report acknowledges the challenges met by the international project, and
       demonstrates that all funds have been devoted to the development and use of the Gemini telescopes
       While there have been some addltlonal costs, we do not believe that any costs have been misstated or
       mlsasslgned. Our differences w~ththe draft report's assignment of costs, between construction and
       operations, are judgments based on the characteristics of this type of scientific project and on the
       authority of the Gemini Board under the Gemini InternationalAgreement (GIA) signed by the international
       Partners These judgements, however, do not foreclose a different characterization of costs, based on
       commonly understood notions of construction versus operations rather than appropriations accounting, if



                                    Page 44
 that seems useful for management or for public understanding of the one-time and on-going expenses of
 the Gemini facility.

 The Foundation also believes that its allocation of costs between its Major Research Equipment (MRE)
 and Research and Related Activities (R&RA) appropriations was within its discretion under the guiding
 principles of Federal appropriations law, but respects the concerns expressed in the report as to possible
 improper,augmentation of the former account. Consequently, NSF will seek to have language included in
 future MRE appropriations to clarify that funds from other sources might be used to supplement those in
 that appropriation.

 In early August 2000,the National Science Board (NSB) reviewed and approved the additional funding
 authority required for the Gemini project.' A proposal for renewal of the cooperative agreement for
 management of the Gemini Project (through 2005) is currently undergoing review, and there will be an
 independent examination of the Project's cash plan for future operations. In addition, the Gemini Board
 will continue to assess the partners' abilities to meet commitments.

The management of large projects has been a focus of attention in the Foundation's Senior Management
Integration Group (SMIG), special NSF staff working groups on large infrastructure projects, and the
internal Management Controls Committee. Such examination reflects our commitment to be proactive in
ensuring that our policies and practices continue to serve us well. Several of the draft report's
management recommendations touch on issues that the.Foundation has addressed or for which it has
active efforts undenvay. We are examining a range of options for improvements, and intend to move
vigorously to ensure that all concerns are addressed.

2. Operations Funds Used to Cover Construction and Commissioning Costs

The Gemini 8-Meter Telescopes Project involves the funding agencies of seven countries. These
agencies are signatories to the Gemini International Agreement. The Agreement was reviewed and
approved within NSF and by the Department of State before it was signed by the NSF Director, originally
in 1993 and as amended in 1994 and 1998. It governs the conduct of the Project.

The GIA establishes the Gemini Board as a regulatory and management body with overall budgetary and
policy control over the Gemini Project. The Board determines the duration of construction and
commissioning of the Gemini facilities and the apportionment of costs between construction and
commissioning and operations where these costs could overlap. The Board is also responsible for
reviewing and approving plans for the use of the development funds for instruments and facilities. An
Instrument Development Fund provides for instruments and their supporting systems to augment,
upgrade or replace those provided as part of construction. A Facilities Development Fund provides an
improvement program for the Gemini Telescopes and their support systems.

While the Gemini Board is the management structure established by the partner countries to carry out this
Project, it is important to note that the Board has no legal status. It is, instead, the steering group for the
Gemini partner agencies. While the Board approves the annual budget for the Project, such approval
does not bind the agencies to provide the funds. It is rather a recommendation to each of the agencies
that the budget is reasonable and programmatically justified, and a further statement that the partner
agency representalives have mutually agreed to use their best efforts to provide their respective shares.

With the above understanding of the Gemini Project as our starting point, we offer comments on the draft
report's discussion of construction, commissioning and operations costs.




'~emorandumto NSB, NSB-00-141. Approved August 3. 2000; Preliminary Report of the August 2-3, 2000 Meeting, NSB-00-160.
 OIG Report: Construction and Commissioning Costs Exceed Budget; Operations Budget Used to Cover
 Additional Costs (pp. 9- 12)

 NSF Comments:

 The draft report provides a description of construction and commissioning costs in Chapter 2, with a list of
 individual component costs in Appendix B. We believe that the items interpreted by the OIG as
 construction and commissioning costs are appropriately categorized as operations costs for the Gemini
 Project. We do not agree with the estimated projection that construction and commissioning costs will
 exceed the approved budget by $52.8 million.

A point-by-point comparison of our analysis, with the analysis in the draft report Appendix B, is provided
in an attachment to this memorandum (Attachment A). Our analysis is based on our understanding of the
GIA Annex A: Project Description, which represents the agreement among the international partners on
what is to be accomplished by the Project. In brief, we believe that the costs cited in the OIG report
represent added capabilities not in the GIA, upgrades to base systems, continuing operational costs, or
other operational expenses. We offer some comments below on points in the OIG report (pp. 11-12):

$ 8 million      Instruments: Our categorization of these costs as operations is consistent with plans for
                 the Instrument Development Fund to provide for instruments and their supporting
                 systems to augment, upgrade or replace those provided as part of construction. For
                 example, the Mid-Infrared Imager is not contained in GIA Annex A and is the type of new
                 instrument that the IDF was established to handle in operations.

$20.1 million    Facilities: Our categorization of these costs as operations is consistent with plans
                 for the Facilities Development Fund improvement program for the Gemini Telescopes
                 and their support systems. For example, the Laser Beacon Adaptive Optics System
                 South ($12.5 million) was not part of Annex A, and is still in the planning stages. It has
                 not yet been approved by the Gemini Board, nor have any funds been disbursed.

$4.4 million    Hilo Base Level Headquarters: Use of U.S. operations funds to cover the unexpected
                cost for this operations base (when the University of Hawaii was unable to) was
                discussed with the Appropriations committees. It was not included in the construction
                budget.

$ 1.5 million   Chile Base Level Headquarters: While Annex A provides for the construction of
                office space in La Serena, a more extensive building would provide laboratory, meeting,
                and operations space -- an enhancement to the Project, enabled by the Australian
                contribution. This has not yet been approved by the Gemini Board, nor have any funds
                been disbursed.

$17.5 million   Integration, Test and Commissioning Costs: Inclusion of an integration, test, and
                commissioning item in the operations budget has been part of the Gemini Board -
                approved project implementation plan since 1995. In particular, use of operations funds
                from the R&RA account to support a phased build-up of staff to assist in integration and
                commissioning of the telescope, and eventually to assume operational responsibility, was
                explicit in the NSF FYI997 budget request and was accepted by Congress in their
                appropriation of these funds.

$ 1.3 m~llion These funds provide increased bandwidth from Cerro Pachon to La Serena (and
                ultimately to the Chilean research network) to enhance operations,jointly funded by ClSE
                and MPS. They also include a supplement from NSF's Intellectual Infrastructure Funds
                to provide high-performance connection for enhanced operational capabilities between
                Gemini North and the mainland.

$52.8 million
  OIG Report: lmpact of Using Two Budgets - Inflated Operations Budget (pp. 12-13)

  NSF Comments:

 The draft report suggests that operations costs have been inflated to cover construction and
 commissioning costs, and that the majority of the Gemini Board-approved o?erations budget for 1996-
 2000 was related to construction and commissioning rather than operations. The report notes total NSF
 R&RA obligations of $29.1 million, and develops an estimate that $19.3 million of these obligations, in the
 OIG's opinion, should have been MRE obligations. It appears that the figure of $19.3 million is derived
 indirectly, based on an attribution of construction and commissioning costs and other calculations.

 In comparison, our analysis approaches the issue of operations costs more directly, by examining specific
 funding actions. We examined Gemini R&RA obligations from FY 1996 through August 3, 2000. These
 obligations, made through twelve amendments to the Gemini cooperative agreement, account for the
 $29.1 mil!ion R&RA obligations cited in the draft report. Using this approach, we believe that the $29.1
 million are properly considered Gemini operations costs, and appropriately charged to R&RA. Details of
 our analysis are provided in an attachment to this memorandum (Attachment B).

 OIG Report: lmpact of Using Two Budgets - NSF May be in Noncompliance with US Appropriations Law
 (pp. 13-16)

 NSF Comments:

The Foundation believes that its allocation of costs between its Major Research Equipment and Research
and Related Activities appropriations was within its discretion under the guiding principles of Federal
appropriations law, but respects the concerns expressed by the Office of Inspector General as to possible
improper augmentation of the former account. Consequently, NSF will seek to have language included in
future MRE appropriations to clarify that funds from other sources might be used to supplement those in
that appropriation.

OIG Report: Lack of Planning and Policies - Budgets Were Unrealistic to Meet Scientific Needs (pp. 17-19)

NSF Comments:

The draft report suggests that Gemini Project cost estimates were unrealistic from the outset. We believe
the original estimate of $176 million was valid when adopted in 1991. As the Project progressed, it was
de-scoped to stay within budget yet still deliver a suite of capabilities to meet all the essential science
requirements. In addition, the construction budget was augmented by $8 million to allow for technical
enhancements, additional staff, and greater contingency funds. This brought the total for construction
and commissioning to $184 million.
The GIA Annex A - Project Description represents the agreement among the international partners on
what is to be accomplished by the Project. We provide an annotated listing of Annex A (Attachment C).
This listing details what will be delivered, on both sites, by the end of 2000; a brief description of the
status of each item; and notations on any differences from the descriptions in Annex A. We believe this
demonstrates that the Project is providing the suite of capabilities called for in Annex A to the original
agreement, for $184 million.




' W e suggest that draft report's footnote 8, on Administrative Guidelines addressing Gemini Board approval of operations budgets
(p. 13), note that the signature of the guidelines was appropriate to the authority of an NSF Level IV Grants and Agreements Officer,
and that the guidelines were signed by counterpart officers at the Particle Physics and Astronomy Research Council of the U.K. and
the National Research Council of Canada in lieu of signatures by their Directors.
    OIG Report: Lack of Planning and Policies - NSF Needs Improved Controls and Processes                            (pp. 19 - 22)


    NSF Comments:

    The draft report discusses a need for earlier involvement of senior NSF management and the NSB
    regarding increased costs. It also expresses concerns about guidelines for the MRE account.

    With respect to Project costs, since the 1995 NSB approval of $204.4 million for the Gemini Project there
    have been four additions to the budget, totaling $31.3 million:

     8 million       Added to the original construction budget of $176 million, for a new total of
                     $184 million. The National Science Board Committee on Programs and Plans was
                     informed of this increase in February and August 1997.~An amendment to the GIA to
                     add this amount was signed by the NSF Director in April 1998. This amount provided for
                     added capabilities not in the original budget, a replenished contingency, and additional
                     staff for integration and commissioning.

 $11.4 million       Additional capital and operations funding contributed since Australia joined the
                     partnership in 1998. The Australian funding is being used for such things as to
                     implement adaptive optics on the Cerro Pachon telescope and to enable the telescopes
                     to be used during twilight, increasing the amount of observing time available. These
                     additions extend the scope of the Project. The possible addition of Australia to the
                     Gemini Partnership was discussed with the NSB CPP at its August 1997 meeting, in the
                     context of possible Chilean defau~t.~

$4.4 million         The Gemini Partnership provided additional funding for an operations building in Hilo,
                     Hawaii, that the University of Hawaii was unable to provide.

$ 7.5 million        Increase in operations expenditures (total from 1996-2000) over the original cost
                    models of 1995, resulting from actual implementation of operations. The ramp-up of
                    operations showed that operations costs in both Hawaii and Chile were significantly more
                    than originally thought. Relocation costs were high and salaries had to be higher to
                    compensate staff for living in remote locations, a common occurrence in projects of this
                    kind. Also included here are a number of items such as high priority upgrades to
                    baseline instruments that were deferred in construction in order to be certain that the
                    telescopes could be delivered within $184 million.

$31.3 million

These components bring the projected expenditure (construction and operations) by the Gemini
partnership to $235.7 million through the end of CY 2000. Funding actions through July 2000 were
consistent with the authority approved by the NSB in 1995, within the Director's additional discretionary
authority as delegated.5




     -      -        -            -

 Memoranda of Discussion, NSB Committee on Programs and Plans (NSBICPP-97-3; NSBICPP-97-13; presentation viewgraphs,
CPP files.)

' NSBICPP-97-13. Discussed in the context of Australia picking up Chilean share in case of default, or with opportunity for
Australians to join the projed should the Chilean share be paid: This latter opportunity was the eventual outcome, with agreement
from the NSF Oftice of the Director that the addition of Australia would be for accelerating the instrumentation proqram and
enhancing scientific pmdlictivity of the telescopes. (Decision Memorandum to NSF ~irector,November 21, 1997.5

belegated discretionary authority most recently stated in NSB-99-112.
    On August 3, 2000, the NSB reviewed and approved the additional fundEg authority now required for the
    Gemini Project, and an extension of the current cooperative agreement. This extension allows an
    orderly transition to a new agreement and appropriate closeout of all construction expenses. In addition
    to the costs cited above, authority of $7.1 million was included in the recent NSB approval to provide
    funding during the transition period. (The U.S. share is included in the FY 2001 budget request
    Congress.) Thus the total budget authority for the Gemini Project now approved by the NSB is $242.8
    million. This total is cited in the draft OIG report as the Gemini Board-approved budget (p.21).

    With respect to the draft report's discussion of the MRE account and MRE guidelines, we offer some
    comments for clarification:

       The Gemini Project bridges the R&RA and MRE accounts. It predates the MRE account, having
       originated in the MPS Directorate's budget subactivity for Major Research Equipment in FY 1991
       (R&RA). The Project then became part of the newly-established MRE account in FY 1995. We have
       summarized the NSF account history for Gemini, through August 3, 2000, as follows (details in
       Attachment D):


           R&RA FY 91- FY 94                           $ 47 million (pre MRE)
           MRE FY 95 - FY 98                           $ 45 million
             Subtotal                                  $ 92 million

           R&RA FY 96- FY 00 (August 3)                $ 29 million
             Total NSF funding                         $121 million

       The subtotal for R&RA (pre MRE) and MRE of $92 million represents the NSF share of the $184
       million for construction and commissioning. The additional $29 million obligated in R&RA, as
       discussed earlier, is for operations costs.

       For completeness of the record, we note that there have been guidelines for the MRE account from
       its beginning, which have been widely available to NSF staff involved with the planning and
       implementation of MRE projects.7 The most recent draft lnterim Guidelines for Planning and
       Managing Major Research Equipment Account Projects have been included in the revised Proposal
       and Award Manual (PAM).

      Regarding the draft lnterim Guidelines, the discussion of intra-agency cost sharing was not written
      with the intent to advocate use of R&RA funds to supplement MRE. The plans for cost sharing by
      Directorates are developed prior to the budget request, so that funds are requested, appropriated and
      obligated in the appropriate account. The draft lnterim Guidelines (and prior versions of the
      guidelines) do state that any additional costs will not be funded through MRE -- so additional funding
      would be requested, appropriated and obligated through R&RA.

We agree that NSF management controls and processes could be improved. As the discussion above
illustrates, there had been no formal discussion of the Gemini Project with the NSB since 1997, until the
August 2000 meeting. Also, guidelines for the MRE account have been and continue to be the focus of
attention. More broadly, facilities management and oversight have been recognized as a management


6~emorandum    to NSB, NSB-00-141; Preliminary Report of the August 2-3, 2000 Meeting, NSB-00-160. The current Cooperative
Agreement between AURA and the NSF ends on December 31, 2000. A proposal from AURA for the next five years of operations
of the Gemini Telescopes (January 1, 2001 - December 31.2005) is currently under review by the Partnership.

' Initial guidelines, 'Criteria and Implementation Procedures for the Major Research Equipment (MRE) Account," were distributed
through Staff Memorandum OID 94-29, November 28. 1994. They were revised and distributed through a memorandum to the
Director's Policy Group June 6, 1997. 'The current 'Draft lnterim Guidelines for Planning and Managing Major Research Equipment
Account Projects" were available April 20.2000. These draft guidelines were discussed with the NSB Committee on Programs and
Plans at its May 2000 meeting (NSB-00-92).
 challenge, as has the need for up-to-date guidance in the PAM.' In the section below on Conclusions
 and Recommendations, we outline actions already taken, efforts underway, and possible approaches to
 additional changes.

 OIG Report: Conclusions and Recommendations (pp. 23-24)

 The draft report points out several areas for Foundation-wide improvement. NSF plans to develop
 improved policies and procedures for managing large capital infrastructure projects, and the management
 recommendations in the report provide valuable suggestions.

 The draft report makes several specific recommendations to the Assistant Director of the Mathematical
 and Physical Sciences Directorate, and Acting Director of the Ofice of Budget, Finance and A ward
 Management and Chief Financial Officer. Our responses are provided below.

     OIG Recommendation: Notify the NSF Director and NSB that the Gemini Project has exceeded its
     authorized Construction and Commissioning budget.

NSF Response:

We believe that the Gemini Project is providing the suite of capabilities described in the GIA (Annex A -
 Project Description) for the cost of $184 million, and that obligations remained within the limit authorized
 by the NSB in 1995 with the additional delegated authority. Our disagreements with the report's
assignment of costs -- between construction, commissioning and operations - are judgments based on
the characteristics of this type of scientific project and on the authority of the Gemini Board to assign
costs. The pivotal role of the Gemini Board reflects the agreement among the international partners. We
will continue to consider, in future international agreements for major projects, the most appropriate
balance of shared authority and responsibility in NSF's partnership role. Nonetheless, clearer guidelines
for the communication of the changing conditions of such projects will help to avoid many of the concerns
expressed in the OIG draft report.

There have been additions to the budget for the Gemini Project, and additional funding authority has now
been sought and approved. When the NSB reviewed and approved the additional funding required for
the Gemini Project, in August 2000, it was also notified that a proposal for renewal of the cooperative
agreement for management and future operations of the Gemini project is currently undergoing review. It
is anticipated that a proposed award action on management and operations of the Project will be brought
to the NSB for consideration in December 2000.

    OIG Recommendation: Work with NSF's General Counsel to take the appropriate steps to address
    the potential legal issues, including addressing the need to reclassiv $79.3 million in R&RA costs to
    the MRE appropriation account and/or seek Congressional authority to transfer R&RA funds to the
    MRE account or obtain additional MRE funds.

NSF Response:

The Foundation's General Counsel advised that there is no need to reclassify spending, but
recommended that NSF seek legislative clarification of the Foundation's authority to supplement MRE
spending with funds from other sources. The Foundation will submit such clarifying language in our next
budget request.

The draft report also makes specific recommendations to NSF's Acting Director of the Office of Budget,
Finance and Award Management and Chief Financial Officer:




 FY 1998 Review: Management Challenges. Memorandum to the NSF Director from the Chair, Internal Controls Committee
(December 22, 1998).
          OIG Recommendation: Issue compliance guidelines for managing MRE projects that, at a minimum,
         (I) provide clear definitions and criteria for the costs to be covered by the MRE account, (2) establish
         processes for ensuring realistic project cost estimates, including contingencies for unanticipated
         costs, (3) provide guidance consistent with appropriate law requirements for handling intra-agency
         cost sharing, and (4) identify NSF's expectations and standards for good project management
         including guidance for how projects will be monitored, accountability for tracking the project's cost,
         schedule, and technical performance, and methods for addressing problems such as cost overruns,
         schedule delays and changes in the technical scope of work.

     NSF Response:

     We plan to provide more complete details in our policies and procedures for managing large capital and
     infrastructure projects. MRE guidelines, first implemented when the account was initiated in 1995, have
     continued to evolve. Many of the issues identified in the draft report have been a focus of NSF-wide
     discussion.

    In June 1998 the Foundation's Senior Management Integration Group (SMIG) chartered a cross-agency
    group to draft new guidelines for planning and managing large projects. The group included senior NSF
    staff who had experience in planning and managing large infrastructure projects. The report of the
    drafting group was presented to SMIG in December 1999, and formed the basis for the current draft
    lnterim Guidelines for Planning and Managing Major Research Equipment Account Projects.

    The draft lnterim Guidelines begin to address several points called out in the recommendations. The
    Guidelines include a new working definition of MRE projects and the costs to be covered by MRE; they
    reinforce the requirement for independently confirmed cost estimates including contingencies; and they
    include a new appendix with a management plan developed for major research equipment, replacing the
    old management plan developed for research programs.

    In transmitting the draft lnterim Guidelines to the NSB for discussion in May 2000, the Director noted the
    complex task of developing definitions and guidelines for the MRE account as the concept of research
    tools continues to e v o ~ v e .The
                                     ~ transmittal memorandum also noted the intention to use the guidelines
    over the next year, as more is learned about new MRE issues. Then a more final set of definitions,
    guidelines and practices will be developed. The recommendations of the draft OIG report will be
'
    incorporated into this effort. (The intent of the Guidelines' provisions for intra-agency cost sharing is
    consistent with appropriation law; the language will be clarified.)

    While we believe that it is most appropriate for MRE guidelines to continue to be issued by the Director
    and the Chief Operating Officer, BFA will willingly take a key role in refining the draft lnterim MRE
    guidelines, as it has in the past, with participation across the agency. Such guidelines, once finalized,
    could then be the basis for developing guidelines more broadly applicable to all large infrastructure
    projects. BFA has already taken the step of including the draft lnterim MRE Guidelines into the revised
    Proposal and Award Manual (PAM). BFA also plans to develop a stand-alone PAM chapter stipulating
    good management practices for large projects.

       OIG Recommendation: Update current policies and procedures with respect to award management
       to recognize the need for a more extensive and higher level of oversight for MRE project awards. As
       part of this process, NSF should consider revising its current delegation of authority to require
       notification to the NSF Director and the NSB when MRE project costs exceed authorized funding
       levels.
 NSF Response:

 We will continue to explore ways for more extensive and higher level of oversight for MRE project awards.
 The draft Interim Guidelines for MRE provide for a comprehensive yearly review of MRE projects by the
 special internal MRE Panel, chaired by the Chief Operating Officer and comprised of the Assistant
 Directors, research program Office Heads, and the Chief Financial Officer. Results of this review are
 reported to the NSB Committee on Programs and Plans. We will develop more specific guidance on what
 should be covered in this review.

Regarding.the current NSF policy on Delegation of Authority for large projects, we have taken steps to
ensure that the Office of the Director is aware when this authority is being used. Currently, NSF staff,
including Grants and Agreements Officers, have a Delegation of Authority that allows the award of
additional funding for NSB-approved awards, up to $10 million or 20% of the NSB-approved amount,
whichever is less. This policy was followed with the Gemini award, with additional funding authority
sought at the time the increased limits under the Delegation had been reached. As an initial step toward
earlier involvement of higher levels of management, and increased oversight, the PAM now includes
provisions for notification of the Director prior to proceeding with the funding increases allowed under
Delegation of Authority.

In addition, we have identified other existing awards that may go above the NSB approved limit into the
discretionary authority range, and have requested that the cognizant Program Managers provide to the
Office of the Director a notification outlining the circumstances under which the NSB limit has been or will
be exceeded.' We will also examine ways to put a system in place to check award size, and alert
programs to notify the Director before exceeding the NSB approved limit.

.   OIG Recommendation: Provide training to all NSF staff engaged in MRE projects on the fund control
    and project management procedures necessary to effectively manage these programs, including
    compliance oversight procedures.

NSF Response:

NSF makes awards primarily to organizations representing the academic community to undertake
management and operations of laboratories and facilities. We agree that it is very important that trained
and skilled NSF staff be involved in the general oversight of these projects. We also believe the
education of our awardees about their responsibilitiescan be helpful. Currently, the BFA staff who are
involved in these projects have background in large project management -- both training and actual job
experience. However, there is a need to formalize clear Foundation-wide guidance and procedures for
administering such projects. BFA has assigned an experienced senior Grants and Agreements Officer to
begin to develop such guidelines. In addition, the BFA Senior Advisor for Management, Operations and
Policy is developing an overview of compliance principles. which at a minimum will be used to develop
modules for both external and internal outreach and training.

We believe it is ~mportantto provide more training to all NSF staff who are engaged in planning and
managing large projects. This task goes beyond any single organization within NSF, and we will work
with appropriate offices across the agency, at all levels, to help ensure proper training -- including training
on the functions of the MRE and R&RA accounts. We also believe there continues to be a critical need
for more resources in the form of permanent FTE's with project management experience, training and
travel funds in order to strengthen the management of large infrastructure projects We will continue to
seek these resources.

The decentralized nature of NSF's current organizational structure does not readily lend itself to having a
cadre of qualified managers for large projects. We will examine a range of options for more efficient and
effective approaches, ranging from a facilities planning and management function across BFA grants and
contracting activities, to a central organization within NSF for managing such endeavors.
     3. Partners Encounter Difficulties Meeting Agreed Contributions to Operations

     OIG Report:        Partner Contributions Vary Significantly from GIA
                        NSF Provides Contributions to Meet Shortfalls
                        NSF Needs Realistic Cash Plan for Operations
                        (pp.2529)

     NSF Comments:

 We believe that the Gemini Project has broken new ground in scientific cooperation. Establishing the
 unprecedented international partnership was an enormous challenge, bridging different national interests
 and conditions. We note that an alternative to what has developed over the past decade might have
 been a U.S.-only project at much higher cost, or a failed international partnership. Trust is fundamental to
 maintaining such a partnership. We believe all partners have acted in good faith, sometimes in the face of
 unstable and difficult budgetary and larger economic and political circumstances.

 The draft report cites concerns about achieving the full percentage funding shares of the Gemini partners.
 It also raised concerns about shortfalls, and the purchase of future observation time.

 We note that the intent for NSF to provide 50% of the funding for Gemini (construction and operations)
 contains no provisions that this must occur on an annual basis. For example, the original contribution
 schedule for construction shows NSF payments beginning in 1991, U.K. in 1992, Canada in 1993, Chile
 not until 1995, and so on." Our partners' payments were not to be completed until 2001. The varying
 funding profiles of the partner nations have a large effect on the annual percentage composition of the
 funding. When Congress appropriated the lump-sum balance ($41 million) of the U.S. payment in 1995,
 the NSF was immediately put in the position of having paid 77% of the cumulative contributions by that
 year and was still at 53% of the cumulative total in 1999. By 2001 we expect the U.S. to be at 50% for
 construction.

The current operations budget planning through 2005 shows that at the end of this period NSF's share
will be 50%. This payment schedule was approved by the Gemini Board and represents a commitment
                                                                                                                            '

on the part of our partners. This approach is appropriate under the GIA and has been part of NSF
planning since the inception of operations payments."

We agree that there needs to be a five-year operations plan, and such a plan is under review in the
consideration of the AURA proposal for renewal of the cooperative agreement to manage Gemini. An
assessment of partners' abilities to meet commitments is part of the fiscal planning of the partnership.

With respect to the purchase of future observation time, we believe that this has allowed the Project to
sustain the participation of valued partners having difficulty with full contributions. In exchange for
telescope time, partners continue to play a role in the project. The availability of this option helps to
provide a stable operating environment for Gemini. It is also an investment of significant benefit to the
U.S. user community. The NSF purchase of additional observing time was recommended by the U.S.
Gemini Science Advisory Committee, as a way to maintain strong scientific ties with partners while also
              need for increased U.S. telescope time in the face of greatly oversubscribed excellent




10
     Annex F to the Gemini InternationalAgreement

"    This approach was discussed with the NSF Office of the General Counsel; e-mail record January 29-30, 1996.
12
  Letter from Chair, U.S. Gemini Science Advisory Committee to Division Director, NSF Division of Astronomical Sciences. April 12,
1999.
      OIG Report: Several Factors Affected Partner Contributions (pp. 26-27)

     NSF Comments.

     We believe all partners have acted in good faith. In the face of difficult economic and political
     circumstances, timely partner contributions have sometimes been a challenge. We have extensive files
     of correspondence and briefings concerning payment and other issues, and efforts to deal with them as
     the partnership and project matured.I3

      For example, due to the special nature of Chile as the host country for Gemini South (and because of our
     long-standing, excellent relationship where the Cerro Tololo operations associated with NOAO are
     concerned), special care has been taken to make every effort to reach amicable solutions to difficult
     issues. However, even in .the case of Chile, the situation eventually resulted in a joint demarche by the
     U.S., U.K., Canadian, Brazilian, and Argentine Embassies to the Foreign Minister of Chile. We believe
     that we have made reasonable and timely responses to these difficult issues.

.    OIG Conclusions and Recommendations (p.30)

    The draft report makes several recornmendations to NSF's Assistant Director of the Mathematical and
    Physical Sciences Directorate, and Acting Director of the Office of Budget, Finance and Award
    Management and Chief Financial Officer, representing the Executive Agency. Our response is provided
    below:

         OIG Recommendation: Release to the Project as U.S. contributions the $3.7 million in funds
         currently held in reserve.

    NSF Response:

    These funds offset advanced operations funding provided by NSF when partner contributions were
    delayed. The funds will reduce NSF's future operations budget obligations. This approach to operations is
    consistent with the GIA.'~A plan for such adjustment of payments is built into the Project budget
    approved each year by the Gemini Board. MPS and BFA will consider the OIG recommendation in light
    of the projected operations budgets for the next five years.

         OIG Recommendations: Work with the Gemini Board to ensure that a realistic assessment is
         conducted of each partner's ability to meet its percentage share commitment and develop a five-year
         plan for operations for 2001-2005. Safeguards established to meet cash shortfalls should spread the
         risk of meeting cash shortfalls equitably among the partners, and not rely primarily on NSF.

    NSF Response:

    A five-year operations plan is under review in the consideration of the AURA proposal for renewal of the
    cooperative agreement to manage Gemini. During this review the projected budget will receive an
    independent examination, external to NSF and to Gemini, in order to establish its credibility. Assessment
    of partners' abilities to meet commitments is part of the fiscal planning of the partnership. The Gemini
    Board has expressed resolve to enact the provisions of the GIA regarding default. NSF participates in
    these discussions through its Board members.




    13
       NSF Division of Astronomical Sciences Gemini files, including documents of the NSF Ofice of the Director; Assistant Director,
    MPS; Department of State.

    '' This approach was discussed with the NSF Office of the General Counsel; e-mail record January 29-30, 1996.
 We agree that the risk should not fall primarily on NSF, although we note that the U.S. is the primary
 partner in the Project, and, as such, carries a heavier responsib~litythan the other partner countries. We
 also believe that NSF, as the Executive Agency for the partnership, must show financial, diplomatic, and
 scientific leadership.

      OIG Recommendation: To the extent that this plan indicates funding shorffalls on the part of some
      countries, the NSF may wish to seek the approval necessary to exceed the fifty percent funding cap.

 NSF Response:

We believe that NSF's 50% share of operations is a clear intent, although not necessarily a formal or
legal cap. We agree that any actions that would increase NSF's share should be carefully reviewed,
including appropriate notifications and discussions. For example, this path was explored within NSF at
the time of the possible Chilean default. The decision at that time was to continue the 50% approach.
Should another emergency arise, this path will be examined again.




Attachments:

A:   Analysis of OIG Estimate of Construction and Commissioning Costs
B:   Analysis of R&RA Funding through Amendments to Gemini Cooperat~veAgreement
C:   Annotated List of Gemini International Agreement - Annex A: Project Description
D:   Gemini Project Funding FY 1991 - FY 2000 (August 3,2000)
                         Attachment A




Analysis of OIG Estimate of Construction and Commissioning Costs
Anaiysls of OIG Estimate of Construction & Commissioning Costs


                                                              OIG Draft Audlt                                                                 NSF Analysis
                                                                                  I
                                                         Construction 8                Added        Upgrade to   Continuing        Other
                                                          Cornrnlssioning             Capability   Base System   Operational     Operations
Description                                                    Costs                  not In GIA      i n GIA      costs         Expenses        Summary of Detailed Notes
                                                                                                                                                          ,
a) Instrument Development Fund (IDF)

Gemini Multi-ObjectSpectrograph (GMOS)
                                                                                  I                                                               Addition of Integral Field Unit
Small Gemini Multi-Object Spectrograph (GMOS)                                                                                                     Spares for operation
Near lnfrared Arrays                                                                                                                              Detector arrays continually upgraded in astronomy research
Near lnfrared Spectrograph (NIRS)                                                                                                                 Enhancements for use in shorter red wavelengths
Near lnfrared Spectrograph IFU (NIRS)                                                                                                                                                        -
                                                                                                                                                  Fiber optic bundle to produce data cube new technology
Polarization Modulater                                                                                                                            Enhancement enabled by improved calibration, measurement techniques
Near lnfrared Arrays (OIWFS)                                                                                                                      Technological advances in wave front sensing instruments
Near lnfrared Arrays (OIWFS)                                                                                                                      Smaller arrays not available when GIA written
Near lnfrared Imager (GRISMS)                                                                                                                     Added optical element for low resolution spectrum
 Mid Infrared Imager (TRECS)                                                                                                                      Next generatton instrument
 High ResolutionOptical Spectrograph (HROS)                                                                                                       Conceptual design only contained in construction
 Flamingo Visitor Instrument Support                                                                                                  100,000     Temporary operations for another organization's equipment
 Subtotal IDF

 b) Facilities Development Fund (FDF)
 La Serena Lab
                                                                                  I                                                    35,775     Lab at base saves costs; technology allows remote control
 Calibration Unit                                                                                                                                 Common calibration unit for more reliable data comparison
 Array and Controller Development (ALTAIR)                                                                           2,312.231                    Detector arrays continually upgraded in astronomy research
 Rework Contingency                                                                                                                 1,847,141     Classification of rework as operations consistent with GIA
 Adaptive Optics Upgrade                                                                                                                           Upgrade to use sodium laser guide star
 Adaptive Optics System North (ALTAIR)                                                                                                             Design change to use new technology
 Laser Beacon Adaptive Optics System South                                                                                                         In planning stage; not yet approved by Gemini Board
 Visitor Instrumentation Support (HOKUPPA)                                                                                            100,000      Temporary operations for another organization's equipment
 Subtotal FDF

 Other Items
 c) Hilo Base Facility                                                4,382,000 NIS                                                  4,382,000     Funded through R&RA as Operations, with Congressional agreement
 d) Southern Base Facility                                            1,500,000 NIS                                                                Not included in original scope with lab facilities
          -
 e) Other Internet Connection                                         1,300,000 NIS                                                                Funded by CISE, Intellectual InfrastructureFunds. MPS
 f) Integration and Test Commissioning                                                                                                             Includes labor buildup costs for technical staff
 Subtotal Other items

  Total Gemini Operations Funds ldentlfied
  b y OIG as Construction and Cornrnlssioning




  NIS - Not in Scope: The OIG Audit Report noted that these
  expenditureswere not included within scope of the
  original agreement.
                               Attachment B




Analysis of R&RA Funding through Amendments to Gemini Cooperative Agreement
Amendments to Gemini Cooperative Agreement (AST-9414257) Funded through RLRA


   Proposal     Amend #    Date          Dollars      Purpose

AST-9641662         7       5120196     $217.444     Near Infrared Imager - critical component of the auxiliary instrumentation
                                                     required to commission and debug the telescope $652.331 over three
                                                     years - work package to University of Hawaii

AST-9643474         8        9/9/96    $3,600,000    "These funds are provided in support of Gemini Operations and AURA shall
                                                     account for these funds separately from the Gemini construction funds."
                                                     Hilo sea level facility previously intended to be funded by the University of
                                                     Hawaii. Initially assumed that rent would be charged to operations account.
                                                     emails indicate OLPA staff discussed this w/ Senate & House staffers
                                                     See also the NSF Director memo to the Appropriations Committee 9/5/96.

                             6/3/97    $5,100,000    These funds are provided in support of operations of the Gemini project
                                                     $250,000 for a spare secondary mirror - design, analysis and tests appropriate
                                                     to charge to operations

                            7111/97    $217.444                           -
                                                     Near lnfrared lmager 2nd increment to U of Hawaii (amendment 7)

                            5/29/96   $5,417,469     Funding includes $5,100,000 for Operations, f 217,444 for 3rd year of Near
                                                     Infrared Imager, and $100.025 for the Mid lnfrared lmager (year one of three)
                                                     Diary note states - In addition to the contribution for Operations, funds
                                                     excess costs of US workpackages for NlRl and MlRl instruments.


                           9110198     $298,000      Funds provided in support of Operations for the Gemini 8 Meter Telescope
                                                    project. Diary note states - This action provides $298,000 from Operations
                                                    account to be used to accelerate outfitting of the Hilo Base facility with
                                                    laboratory and instrcment support hardware and complete construction of the
                                                    building.

                           3/12/99    $6,249,600    These funds are being provided in support of Operations of the Gemini Project.
                                                    Diary note states - $100,000 for 2nd MlRl installment is included

                           3/23/99     $600.000     These funds are being provided in support of Operations of the ~ e h i nProject.
                                                                                                                            i
                                                    Supplement to FY 99 base budget from MPS as Intellectual Infrastructure Funds.
                                                    Provide for capital equipment required to implement high-performance connceti
                                                    (bandwidth-intensiveweb and video-conferencing) beween Gemini Noth (Hawaii)
                                                    and the mainland. Cost sharing w/ U of Hawaii to supplement. Provide high speed
                                                    internet connection for large format cameras and instrumentation.

                            7/2/99    $850.400      These funds are being provided in support of the MlRl instrument and Operations
                                                    of the Gemini project. 3rd installment of $100.000 for MIRI.

                           8/26/99    $350,000      These funds are being provided in support of Operations of the Gemini project.
                                                    funding is provided as a supplement in response to proposal to connect the NSF
                                                    owned facility to the high speed network known as vBNS. Gemini South at Cerro
                                                    Tololo will be connected. Uses AN1 funds.

                          12/28/99    $5,866,313    These funds are provided in support of Operations of the Gemini Projed.

                            3/1/00    $350,000      This amerndment increases the funds available under the cooperative agreement
                                                    by $350,000 and provides the remainder of funds for FY 2000 for connectivity as
                                                    specified in Amendment No. 037. These funds are being provided in support of
                                                    Operations of the Gemini Project. Completes funding for GemitdCTIO connectivity
                                                    in Chile that was begun with AN1 funds.

              Subtotal
                                Attachment C




Annotated List of Gemini InternationalAgreement - Annex A: Project Description
                                   Gemini Agreement Annex A: Project Description

 The Gemini Project has as its goal the construction of two 8-meter telescopes. The first will be located on
 Mauna Kea in Hawaii, and the second will be built in Cerro Pachon in Chile.

 At the completion of construction, the Gemini Project will supply the following on Mauna Kea:

      1   Elevation-over-Azimuthtelescope with monolithic primary mirror with an            I
          8-meter usable aperture                                                           I DONE
                                                                                            I
                                                                                                                           I


      1 Infrared f116 secondary with tipltilt and chopping capability                           DONE
      I Low order adaotive O ~ t i c ssvstem for use in the near infrared                   1 DONE
          Imager for 1-5 microns                                                                DONE
                                                                                                IN PROCESS
          Multi-aperture optical spectrograph                                                   anticipated to be
                                                                                                complete at the end
                                                                                                of this vear

          Optical Imager                                                                        DONE
                                                                                                (acquisition camera)
          Cooled grating spectrometer for wavelength range 1-5 microns                          IN PROCESS
          Rotator and instrument mountina                                                       DONE
   I Telescope enclosure                                                                1 DONE
          Thermal control system for the enclosure                                              DONE                   I

          Primary mirror handling equipment                                                     DONE
          Sputtering plant capable of coatirlg primary mirror                                   DONE
          In-situ system for cleaning of the primary mirror                                     DONE
          Program to develop the method for depositing a protected silver coating
          on the primary mirror
                                                                                    .
                                                                                        1       DONE
          Building to house control room and other support facilities
          Dormitory facilities for observers at Hale Pohaku
      Capability for remote observing at sea level in Hawaii                                DONE
      Computers and software for controlling the telescope and for initial data             DONE

  I   acauisition

      telescooe
                ~ n road and utilities to the CFHT and to move the UH 24-inch
      ~ e e l i the
                                                                                    1       DONE

("Excluded from the project budget is the cost of the sea level headquarters in Hawaii.")
     In Chile the project will provide:

    E n - o v e r - ~ z i m u t telescope
                                h         with a monolithic primary
     mirror with 8-meter usable aperture                                   DONE
     Aluminum coated secondary at fl16 with tipltilt and chopping
     capability                                                            DONE
     Optical Imager                                                        DONE
     Guiding and wavefront sensor at the Cassegrain focus                  DONE
     Rotator and instrument mounting at the Cassegrain focus               DONE
                                                                           Design study only funded under
                                                                           construction.
     High resolution optical spectrograph                                  Higher scientific priority assigned to
                                                                           second GMOS, enhanced A 0 capability
                                                                           and thermal IR camera study
    Telesco~eenclosure                                                     DONE
                                                                           DONE
                                                                           In addition to the passive ventilation
                                                                           mentioned, the dome includes day time
                                                                           air-conditioning and a complex set of
                                                                          computer controlled vents to draw air
    Thermal control system for the enclosure                              through various areas to bring the dome
                                                                          into thermal equilibrium as fast as
                                                                          possible. This includes double walls on
                                                                          the enclosure shell, wlh insulation on the
                                                                          interior and ventilation through the
                                          -   -
                                                                          observing floor.
'
    Primary mirror handling equipment                                     DONE
    Sputtering plant capable of coating the primary mirror with           DONE
    aluminum
    In-situ system for cleaning the primary mirror                    I DONE
                                                                      I



1   Capability for remote observing at sea level in La Serena         1   DONE                                         I
    Computers and software for telescope control and data                 DONE
1   acquisition
1   Road to Cerro Pachon                                                  DONE
                                                                          one of the earliest construction needs

1 Power and water lines to Cerro Pachon
I
                                                                      I DONE
1
1 Construction camp, which can be converted to a small
  number of bedrooms for use by observers
                                                                          DONE

[ Construction of office space in La Serena                           I IN PROCESS
    "It is assumed that, while observers may choose to sleep on Cerro Pachon, primary meal service and
    additional sleeping quarters will be provided by CTIO, with staff and observers driving daily as needed."

    "The base budget includes funds to develop the processes required to deposit protected silver coatings
    on the primary mirror of the Mauna Kea telescope and to provide a coating chamber that can deposit an
    aluminum coating (base budget) and can be upgraded to provided (sic) the capability for protected silver
    coatings. The Gemini board (sic) has agreed to consider including the upgrade to the coating chamber in
    the Gemini budget after technical feasibility is established."
        PROCESS DEVELOPMENT UNDER BASE BUDGET WAS SUCCESSFUL
        UPGRADE OF THE COA1-INGCHAMBER WAS INCLUDED IN THE $8 MILLION INCREASE FROM
        $176 MILLION TO $184 MILLION
                    Attachment D




                             -
Gemini Project Funding FY 1991 FY 2000 (August 3,2000)
                                         GEMINI PROJECT FUNDING FY 1991-2000
                                                                                             (August 3,2000)

                          R&RA Estimate R'RA Est'mate
                                                Rev~sedin
                                ln           Subsequent Year
                          C ~ n g r e ~ ~ l ~ nCongressional
                                                al             R&RA                      MRE          MRE                                                                   ~ r c sFund
                                                                                                                                                                                   t                   Total
               F~scalYear    Request             Request     Obligations MRE Request Appropriations Obligations                                                             Obligations              Obligations
                    1991 $ 4,000,000 $ 4,000,000 $ 3,815,000 $                  - $            - $           -                                                              $         -          $     3,815,000
                        1992          16,000,000               12,000,000 12,062,785                                                       -                     -                    -               12,062,785
                        1993          17,000,000               14,000,000 14,000,000                                                       -                     -                                    14,000,000
                        1994          17,000,000               17,000,000 17,120,000                                                       -                     -              16,518,186            33,638,186
'sub Total 1991-1994                  54,000,000              47,000,000            46,997,785                                             -                     -              16,518,186            63,515,971

                        19951                     -                       -                    - 1        20,000,000       1    41,000,000       1    41,000,000       1         5,592,005   1        46,592,005

                       1996"             3,500,000               3,600,000            3,817,444                                            -                     - 1,095,000                           4,912,444
                        1997             5,100,000               5,360,000            5,317,444                                            -                     - 8,290,635                          13,608,079
                        1998             6,260,000               6,260,000            5,715,469                                   4,000,000             4,000,000 24,669,986                          34,385,455
                        1999             6,980,000               7,130,000            8,050,000                                             -                -    12,607,474                          20,657,474
                       2000\~            7,250,000               8,050,000            6,216,313                                             -                -     8,025,725                          14,242,038
Sub Total 1996-2000                    29,090,000              30,400,000            29,116,670                                   4,000,000             4,000,000               54,688,820            87,805,490

Total                           1$     83,090,000       1$     77,400,000        1 $76,114,455 ( $ 20,000,000 1 $ 45,000,000 1 $45,000,000 1 $76,799,011 1 $197,913,466
'' $3.5 million was not included in FY 1996 request, funding was a result of a reprogrammingletter to the Congressional Appropriations Committee dated September 5, 1996.
'R8RA has an available balance of $2.2 million and the Trust Fund has an available balance of $22.6 million.
